<html>
<title> - BCS OR BUST: COMPETITIVE AND ECONOMIC EFFECTS OF THE BOWL CHAMPIONSHIP SERIES ON AND OFF THE FIELD</title>
<body><pre>[Senate Hearing 108-462]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-462

BCS OR BUST: COMPETITIVE AND ECONOMIC EFFECTS OF THE BOWL CHAMPIONSHIP 
                      SERIES ON AND OFF THE FIELD

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

                          Serial No. J-108-50

                               __________

         Printed for the use of the Committee on the Judiciary



93-795              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     6
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     8
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
    prepared statement...........................................    63
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    10

                               WITNESSES

Bennett, Hon. Robert, a U.S. Senator from the State of Utah......     3
Brand, Myles, President, National Collegiate Athletic 
  Association, Indianapolis, Indiana.............................    12
Cowen, Scott S., President, Tulane University, New Orleans, 
  Louisiana......................................................    15
Edwards, LaVell, former Head Football Coach, Brigham Young 
  University, Provo, Utah........................................    19
Perlman, Harvey S., Chancellor, University of Nebraska-Lincoln, 
  Lincoln, Nebraska..............................................    14
Tribble, Keith R., Chairman, Football Bowl Association, Miami, 
  Florida........................................................    17

                       SUBMISSIONS FOR THE RECORD

Brand, Myles, President, National Collegiate Athletic 
  Association, Indianapolis, Indiana, prepared statement.........    41
Cowen, Scott S., President, Tulane University, New Orleans, 
  Louisiana, prepared statement..................................    50
Edwards, LaVell, former Head Football Coach, Brigham Young 
  University, Provo, Utah, prepared statement....................    58
Perlman, Harvey S., Chancellor, University of Nebraska-Lincoln, 
  Lincoln, Nebraska, prepared statement..........................    65
Tribble, Keith R., Chairman, Football Bowl Association, Miami, 
  Florida, prepared statement....................................    89

 
BCS OR BUST: COMPETITIVE AND ECONOMIC EFFECTS OF THE BOWL CHAMPIONSHIP 
                      SERIES ON AND OFF THE FIELD

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, DeWine, Biden, and Sessions.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Welcome to today's Judiciary Committee 
hearing on competitive and economic effects of the Bowl 
Championship Series.
    Many of you may not be aware that when I was in high 
school, I had a promising future in football, but things didn't 
work out. BYU already had a halfback and I was too slow and I 
couldn't seem to go to my left, so it was a big problem for me. 
Well, some things never change. I still don't go to the left.
    [Laughter.]
    Chairman Hatch. But on a serious note, I am pleased that 
the Judiciary Committee is examining the competitive effects of 
the BCS because of the notion of basic fairness that has been 
called into question by the current BCS system. I believe there 
is value to ensuring fairness in our society whenever we can. 
And while life may not be fair, the moment that we stop caring 
that it isn't, we chip away at the American dream.
    Let me just say that many sports fans in Utah and all 
across the Nation have strong feelings about the BCS. Almost 
without exception, these fans make the same two points. First, 
the current system is unfair. Second, they care deeply that it 
isn't. And I think it is worth a couple of hours of this 
Committee's time to consider the matter.
    In my opinion, the current manner in which teams are chosen 
to play in the four major bowl games and the way in which a 
national champion is determined are fundamentally unfair to 
non-BCS teams. The first problem is one of access. There are 
only four BCS bowls, limiting participation to eight teams. Six 
of the available slots are guaranteed to the champions of the 
BCS conferences, leaving only two slots for the remaining 11 
teams in both the BCS and non-BCS conferences, and these two 
slots are filled using a ranking system that many claim is 
biased against non-BCS teams. Under these circumstances, it is 
hardly surprising that not a single non-BCS football team has 
played in a BCS bowl since its inception in 1997.
    The second problem is that the non-BCS teams are placed at 
a financial and competitive disadvantage because the BCS 
conferences retain most of the tens of millions of dollars of 
bowl revenue. The financial disparities that result from the 
current system translate into a competitive disadvantage for 
non-BCS teams. Combined, the revenues of the four major bowls 
in the upcoming year are projected to be $89.9 million. 
According to the revenue distribution information on the BCS 
web page, the BCS will quote ``contribute $6 million to other 
Division I-A and I-AA conferences to be used in support of the 
overall health of college football.''
    Under this system, the minimum payout for the BCS 
conferences will be $13.9 million, and if, as will probably be 
the case, no non-BCS team plays in a major bowl, approximately 
$17 million will be paid to each BCS conference that has one 
member team invited to a BCS bowl, and $21.5 million to the BCS 
conferences lucky enough to have two member teams invited. This 
is compared to the $1 million that most of the non-BCS 
conferences will receive. Where BCS conferences stand to 
receive more than 20 times what the non-BCS conferences get, 
the resulting competitive disadvantages are unmistakable.
    A third conclusion is that the combination of extremely 
limited access and enormous financial disparities may severely 
damage or disadvantage non-BCS teams in the area of recruiting. 
As I believe Coach LaVell Edwards will emphasize in a few 
minutes, one of the biggest recruiting hurdles for non-BCS 
teams is that coaches from the BCS conferences are able to tell 
potential recruits that if they attend a non-BCS school, they 
will never play in a national championship game or probably 
even in a major bowl. The financial disparities that I have 
mentioned also affect recruiting, for obvious reasons.
    According to the title, today's hearing will examine the 
effects of the BCS both on and off the field. I have outlined 
my principal concerns about how non-BCS teams may be 
disadvantaged on the field, but what about off the football 
field? I would like to briefly highlight three areas of 
particular concern.
    First, because football revenues are often used to fund 
other college sports, I am concerned about the impact that the 
financial disparities caused by the BCS may have on these other 
sports.
    Second, I am concerned that the financial disparities 
resulting from the BCS may make it more difficult for non-BCS 
schools to provide fair and equal opportunities for female 
athletes as required by Title IX.
    Third, and perhaps most importantly, I and many others are 
concerned that all this college football money is turning 
college sports into nothing more than a minor league for pro 
football rather than a legitimate educational opportunity for 
student athletes.
    Unfortunately, Chancellor Gordon Gee of Vanderbilt 
University could not be here with us today. Vanderbilt recently 
took steps to deemphasize its athletic program and I really 
would have enjoyed hearing his perspective on all these issues.
    Of course, just because something is unfair doesn't make it 
unlawful. However, the principle of fairness and, in 
particular, fair competition is to a certain extent reflected 
in our antitrust laws. For example, it is generally unlawful 
for two competitors in any particular market to agree to 
exclude a third. Some would argue that this is effectively what 
the BCS does. But while the antitrust implications in the BCS 
will be part of what we discuss here today, I think it is 
unclear how a court would rule on an antitrust challenge to the 
BCS.
    I, for one, hope that we don't find out. It is my sincere 
hope that the BCS system will be improved through a negotiation 
rather than litigation. I note that representatives of BCS and 
non-BCS schools met in September and will meet again on 
November 16 to discuss how the current system might be changed 
to be more inclusive.
    So in closing, I urge the participants in these meetings to 
work toward a mutually acceptable solution that will answer the 
criticisms of the BCS that we discuss today. If nothing else, I 
would admonish the participants simply to do what is fair.
    I look forward to hearing testimony from our witnesses, but 
before I introduce them, whenever the Ranking Member comes in, 
we will turn to him or his representative to make a statement, 
whenever they come in.
    We are delighted to have Senator Bennett, my colleague from 
Utah, here today. He is doing a great job in the Senate and 
naturally he is concerned about these issues, as am I. Senator 
Bennett is a graduate of the University of Utah. Senator 
Bennett, we look forward to your comments at this time and any 
suggestions you can make for us.

STATEMENT OF HON. ROBERT BENNETT, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be with you. I appreciate your 
opening statement in which you outlined all of the primary 
arguments with respect to this issue. Rather than repeat those 
arguments, even though I have learned since coming to the 
Senate there is no such thing as repetition--
    [Laughter.]
    Senator Bennett. --I would like to put a slightly different 
face on this issue that I hope will send a message of reality 
to the BCS schools and those who are supporting the present 
situation.
    As you know, Mr. Chairman, I am the Chairman of the Joint 
Economic Committee and I have spent a lot of time in my Senate 
service focusing on economic issues. One of the things that has 
come out of that experience is a recognition of the ultimate 
fate of monopolies. Monopolies seem really wonderful at the 
beginning. If you have a monopoly on something, you can set the 
price virtually wherever you want it. You can charge whatever 
the traffic will bear. There are no penalties. You can do 
whatever you want because you have no price to pay down the 
line. People have to buy your product because you are the only 
one who has it.
    The history of monopolies throughout history is that they 
don't last. Monopolies become bloated, they become inefficient, 
and eventually they die. And people who participate in 
monopolies look back on that history and say, you know, we 
would have been better off if we had had vigorous competition 
right from the beginning, if we had been forced to improve our 
product in order to continue to sell it for fear that somebody 
else might take it away.
    The BCS is setting themselves up, if they succeed in 
maintaining their present cartel, for ultimate extinction. They 
should understand what will happen to their product, in 
monopoly terms, if they do not move away from the clever 
structure that they have created for themselves.
    They exist to take advantage of television money. The BCS 
system was created to make sure that 96 percent of all bowl 
revenue went to BCS conferences. That is a tremendous incentive 
to keep the present situation. Ninety-six percent of the TV 
revenues that come from covering the New Year's Day bowls go to 
BCS conferences. Why would somebody in a BCS conference want to 
upset that? The reason they might want to upset that would be 
to look into the future and discover what could very easily 
happen, indeed, what is very likely to happen. People will get 
tired of seeing Miami play Ohio State one New Year's after 
another. They want some excitement. They want some diversity in 
college. They want the opportunity for a Cinderella story.
    We have just seen what a Cinderella story can do to revive 
a dying sport in the last World Series. I remember when 
baseball went through its strike and people were staying away 
from baseball stadiums in droves. There were even suggestions 
that baseball as a sport was finished because everybody was 
tired of the greedy owners and the greedy players and why 
should they watch that sport. TV ratings for baseball went 
down.
    Well, they went through the roof this year because we had 
the Cubs and the Marlins. We thought the Red Sox might someday 
finally overcome their curse and beat the Yankees. We had 
excitement, and the Marlins, whose payroll is one-third of the 
Yankees', came through and won the World Series and all the 
Yankee haters all over the country rejoiced.
    [Laughter.]
    Senator Bennett. They followed baseball in a way that 
baseball has not been followed for a long, long time.
    If we prevent a college football version of the Florida 
Marlins from ever coming forward, playing in the Rose Bowl or 
the Cotton Bowl or whatever it might be, and attracting 
national attention, we run the risk of having the TV promoters 
say, you know, we can sell something else on New Year's Day 
that can get higher ratings than a rerun of the Big Ten and the 
SEC playing one more time with their top teams.
    The TV revenues, of which the BCS get 96 percent, can go 
down if the product gets tainted by public boredom. Oh, that 
will never happen, say the chancellors of the BCS schools. They 
should understand that TV producers do not go on sentiment. TV 
producers go on ratings, and if the ratings start to fall for 
college football because people get bored with the same old 
match-ups, there will be no sentiment in the board rooms of the 
TV executives. They will look to the ratings and they will find 
something else to put on.
    You mentioned that I was a graduate of the University of 
Utah. That is true. I grew up in Salt Lake City and I remember 
as a young man the most exciting college sports experience that 
I could ever have experienced, and it still stays in my memory 
and those who are of my generation still talk about it. It was 
basketball, not football, but it illustrates the point I am 
trying to make here.
    The University of Utah basketball team in the 1940s--sorry, 
I can't put the exact year on it, my memory is not that good--
went to the NCAA finals, and in those days, the NCAA finals 
were the second tier. The real national championship was 
determined by the National Invitational Tournament, the NIT. 
The University of Utah team did well, but not well enough. They 
lost out.
    They were on their way home when a team that was scheduled 
for the NIT was involved in an accident and unable to 
participate, and the NIT reached out to fill out their schedule 
and said to the University of Utah, will you come compete in 
the NIT? So here was a team that was not good enough by its 
records to get invited to the big games, but by virtue of a 
tragic accident that had eliminated one of the teams, got an 
opportunity to go.
    It still fills me with goosebumps and chills to think of 
what happened. They went to the NIT and they won the NIT, two 
points, as I recall. I can still name some of the players on 
that team--Arnie Faron, Watt Masaka. All Utahans can remember 
that, and the Nation at the time was transfixed by this 
Cinderella team from out of the West, last-minute substitute 
that went on to win the NIT, last basket, buzzer-blowing, all 
of the things. It may not have been as exciting as I remember 
it now, but it certainly was exciting at the time.
    BCS is structured to make sure that that kind of thrill, 
that kind of opportunity, will never, ever come to college 
football. No matter how good a team might be from a non-BCS 
school, the way the thing is structured now, will not have an 
opportunity to thrill the Nation and keep alive television 
interest in college football.
    Oh, the BCS people say, well, there are two slots available 
and those two slots, you might have the college football 
version of the Florida Marlins show up and take one of those 
slots and win the national championship. It is possible. No, it 
is not, not because there isn't a team out there that could do 
it now, but because, as you, Mr. Chairman, have pointed out, 
the recruiting will make it clear that the good players won't 
run--good high school players won't run the risk of being on 
one of those Cinderella teams that could come out from nowhere 
and win it.
    They will go to a BCS school and then the BCS monopoly will 
say, see, we are the best teams, so naturally we should get 96 
percent of the money and it is all being decided on the playing 
field. No, it is being decided by virtute of the structure, and 
long-term, if they are allowed to continue that kind of 
monopoly practice, they will suffer the same fate as every 
other monopoly in history.
    They will become bloated, complacent, inefficient, and 
eventually kill the golden goose from which they are now taking 
the eggs because national television will say, people don't 
care about college football anymore. There is no excitement. 
There is no opportunity for a newcomer to come in. It is a 
closed corporation. We will find something else to broadcast on 
New Year's Day. And the successors of today's chancellors of 
the BCS schools will wonder what happened to the great 
opportunity we had to maintain excitement for college football.
    I urge the Committee to continue to probe this issue. I 
will do what I can to continue to probe the issue. I think it 
is a very significant one that is worthy of your attention. 
Thank you.
    Chairman Hatch. Thank you, Senator. I appreciate your 
excellent statement.
    I have to remember, I didn't have the privilege of living 
in Utah at the time, but I was a basketball player in high 
school in Pittsburgh--
    Senator Biden. And a union member, as well.
    Chairman Hatch. That is right, and a union member, as well.
    Senator Bennett. I want that for the record, Mr. Chairman, 
that you were a union member.
    [Laughter.]
    Chairman Hatch. No, I am still a union member, but you guys 
have just gone too far off the reservation, that is all.
    [Laughter.]
    Chairman Hatch. But in any event, I remember Arnie Faron 
and Watt Masaka and Vern Garner and two All-Americans on that 
team. And one of the thrills of my life was after, of course, 
moving my family to Utah, becoming a very good friend of Arnie 
Faron's. He is a great friend to this day, because he was a 
hero of mine, I will tell you. I followed that team and I 
remember that very, very well. So bringing that to all of our 
recollection, I think under these circumstances is a very, very 
good thing and you have done a very good job.
    But we know how busy you are. We will let you go.
    Senator Bennett. Thank you, Mr. Chairman.
    Chairman Hatch. We know you have a full plate. Thank you 
for being here.
    We will turn to Senator Biden at this time and then we will 
go to our witnesses.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. I thank you very much, Mr. Chairman, and I 
thank your colleague from Utah, who I always enjoy listening to 
and, I might say for the record, is one of the fairest people 
in the United States Senate and I hope everyone listened to 
him.
    Let me apologize to you, Mr. Chairman, and the witnesses. I 
am shuttling between the Foreign Relations Committee hearings 
on the new ambassador for Afghanistan here, like I know you 
have similar conflicting responsibilities. But the bad news is 
when you are Chairman, you have to be here, and I get to do it 
between two places.
    Let me begin by commending you and the Ranking Member for 
deciding to hold this hearing. Although this Committee held 
hearings on this subject back in 1997, I requested this hearing 
because recent events have convinced me that further 
examination and discussion of the Bowl Championship Series 
system is warranted.
    Let me say at the outset that mine is not a parochial 
interest. My alma mater, the University of Delaware, plays 
Division I-AA football and so is not eligible for any of the 
bowls we will discuss today, although I might note for the 
record we are ranked number two in the Nation, beat Navy, a 
Division I team, in their homecoming at Navy last week and I 
predict will end up number one in the Nation, but that is a 
different issue. [Laughter.]
    Having played at Delaware, I am incredibly proud of my alma 
mater, but rather, I am concerned about the allegation that BCS 
has created a system of haves and have-nots when it comes to 
Division I-A football. Since its inception, to state what I am 
sure has already been stated, in 1998, no non-BCS member school 
has played in a BCS bowl game. That means that 52 major 
universities' Division I-A football programs have not had the 
opportunity to compete for a national championship in the 
foremost prestigious and lucrative college football bowls. As a 
result, during the 2001-2002 season, BCS member schools enjoyed 
$101 million in revenues while their non-member counterparts 
received only $5 million.
    According to a recent New York Times article, over the 8 
years of the BCS contract, the BCS, quote, ``while the 
Southeastern Conference, the Atlantic Coast Conference, the Big 
East, the Pacific Ten, the PAC-Ten, the Big 12, the Big Ten, 
and Notre Dame will split $900 million over 8 years of the Bowl 
Championship Series contract, which runs through 2005, the 
schools that have been left out will split just $42 million 
over that period.''
    It is not difficult to imagine what impact this revenue 
imbalance can have and does have on Division I-A 
intercollegiate athletics. BCS member universities have 
substantially greater budgets for athletic programs than non-
members. These larger budgets accord BCS members the advantage 
in recruiting student athletes, retaining coaching staff, and 
maintaining a strong student fan base.
    In contrast, the non-BCS members with lower athletic 
budgets suffer from inferior athletic facilities and rising 
deficits. I am aware, for example, that Tulane's athletic 
program is running a significant budget deficit and I would 
appreciate hearing more about Tulane's situation from President 
Cowen this morning. I should, in full disclosure, acknowledge 
that my daughter recently graduated from Tulane. I like Tulane 
very much, but she did not play football at Tulane. [Laughter.]
    My concerns aren't just about money. It is not just the 
perceived unfairness to excluding non-BCS member schools from 
playing in the national championship, but I am also concerned 
about the multiplier effect caused by the BCS. As the 
Washington Post recently noted, and I quote, ``The cost of NCAA 
Division I-A membership has become exorbitant. The latest rules 
require colleges to support 16 sports in order to participate. 
Without the funds provided by lucrative bowls, non-BCS 
universities are increasingly facing a very real Hobson's 
choice. Academics must often take a back seat to provide the 
funds needed to support college athletics, or just as bad, 
these same schools are finding it increasingly difficult to 
provide sports teams for their female athletes as required by 
Title IX.''
    And I must tell you, that is one of the overwhelming 
reasons why I became interested in this item. Not only is there 
a bit of an onslaught on Title IX to begin with from other 
quarters, I think this is a very high price that would be paid 
if something isn't changed, because I think it has been the 
single most significant thing that has happened to women, 
collegiate women in America, is the increase in since Title IX 
and the participation of competitive women's sports, and it 
goes far beyond their sports capability. It goes to their image 
of who they are. It goes to the possibilities they think are 
available, and I don't think it can be underestimated. So I 
want to be straight about that.
    Such a robbing of Peter to pay Paul approach--that was the 
end of the quote, by the way, but since the robbing of Peter to 
pay Paul approach totally undermines the original goal of the 
NCAA-sponsored sports to produce scholar athletes, I think we 
have to look very hard at this. The professed goal of the BCS 
system is to provide a championship game between the two best 
Division I-A intercollegiate college football teams selected on 
the basis of fair and objective criteria.
    It is clear to me that BCS members and non-members are not 
competing on a fair and balanced playing field. It is sort of 
like college basketball telling Gonzaga at the beginning of the 
season that they most likely won't make it to March Madness no 
matter how well they do this season. I call that unfair. In 
lawyers' terms, it also appears to raise a significant 
antitrust concern to me.
    I know that the various sides of this dispute have begun to 
get together and negotiate a solution. I view today's hearing 
as another step in the process of attempting to resolve this 
problem. However, if the sides cannot come to an agreement that 
eliminates the clear problems that the current BCS system 
demonstrates and evidences, it may well be the case that this 
Committee and this Congress will have to revisit the issue, and 
this Senator may decide to do what I think we should avoid 
doing, and that is at all costs, we should try not to legislate 
an outcome here. But that depends upon, in my view, how sincere 
and legitimate the negotiations are.
    In closing, let me welcome our esteemed panel of witnesses, 
and I applaud both sides of this debate for expressing what 
seems to be an absolutely sincere desire to negotiate. I 
applaud their desire to find a solution to this problem that 
will benefit the 5,000 talented young athletes involved in 
Division I-A football, and I applaud their desire to design a 
system that millions of college football fans across the 
country will truly embrace, a system that allows any one of the 
117 Division I-A college football teams the right to a shot at 
the title, and I hope these proceedings will help promote that 
end, Mr. Chairman.
    Again, I thank you for holding these hearings and I 
apologize for being late.
    Chairman Hatch. Thank you, Senator. Thanks so much.
    Senator DeWine. Mr. Chairman?
    Chairman Hatch. Senator DeWine?

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Mr. Chairman, I have a brief statement I 
would like to give.
    Chairman Hatch. That would be fine.
    Senator DeWine. Thank you. Thank you, Mr. Chairman, for 
holding today's hearing on the Bowl Championship Series, the 
BCS. This hearing will highlight issues both on the field and 
off the field surrounding the college football bowl system. As 
Chairman of the Antitrust Subcommittee and as certainly a 
college football fan, I was particularly interested in seeing--
I am interested in seeing that the bowl system is both 
competitive and fair.
    Many of the issues that the bowl system faces today are the 
same ones that we faced 6 years ago when our Subcommittee held 
a hearing examining the Bowl Alliance, the predecessor to the 
BCS. First, the BCS, like the Bowl Alliance before it, does, in 
fact, exclude several conferences, such as the Western Athletic 
Conference, Conference USA, and the MAC.
    Second, the BCS raises the same antitrust and competition 
concerns that I noted with the Bowl Alliance 6 years ago, 
namely that potential antitrust problems may arise any time 
competitors, like the BCS conferences, agree among themselves 
instead of competing.
    I want to take a moment, Mr. Chairman, to talk about the 
antitrust analysis that I think applies to the BCS. The first 
step in the analysis is in examining the agreement between the 
BCS conferences, the Big Ten, Pac Ten, Big 12, SEC, ACC, and 
the Big East, and the BCS bowls, the Orange, Sugar, Fiesta, and 
the Rose Bowls. We have to look, I believe, Mr. Chairman, at 
both the purpose of the agreement and whether the agreement has 
had any harmful effects on competition. BCS proponents claim 
that the purpose of the BCS is to ensure a number one versus 
number two bowl game.
    Assuming this purpose, we still need to look at whether the 
BCS has harmed competition. To do this, I think we need to look 
at the bowl situation prior to the BCS. For example, let us 
look at the teams that played in the Orange, Sugar, Fiesta, and 
Rose Bowls since 1971. In that time frame, only three teams 
currently in non-BCS conferences played in any of those four 
bowl games. So looking at it that way, at least, the BCS has 
not had much direct effect on the schools.
    Of course, we need to examine the effect on consumers, in 
this instance, the fans. So we need to examine if the BCS has 
deprived these consumers of higher quality bowls than they may 
have otherwise seen without the BCS. Of course, this is hard to 
evaluate, and this will be depending on who you ask, I guess. 
For example, would there have been higher quality bowl games 
after the 1998 season if undefeated Tulane had played in one of 
the BCS bowls, or after the 2001 season if 12 and one BYU had 
played in a BCS bowl game?
    In any event, Mr. Chairman, if we assume the BCS actually 
does cause harmful effects on competition, we need to balance 
those harmful effects against the benefits that the BCS brings. 
To me, we only have to look back to last January's Fiesta Bowl 
game between number two-ranked Ohio State and number one-ranked 
University of Miami to see the benefits of BCS. Obviously, I am 
a little prejudiced. That unbelievably tense game ended, 
happily, in my view, with Ohio State winning the national 
championship.
    Now, Mr. Chairman, prior to the BCS, that game simply would 
not have taken place. Ohio State would have played in the Rose 
Bowl, as we always did, against the PAC Ten champion, or as the 
Big Ten champion always did, while Miami likely would have 
played in the Sugar or the Orange or the Fiesta Bowl. So for 
the Ohio State-Miami game, the system worked. In fact, the BCS 
has resulted in match-ups between the top two teams in each 
year of its existence.
    Contrast that with what happened after the 1997 football 
season, when both Michigan and Nebraska went undefeated but 
played in separate bowl games. That year, there were two 
disputed national champions instead of one undisputed national 
champion.
    Just, Mr. Chairman, to finish the antitrust analysis, if we 
assume the benefits of the BCS outweigh the harmful effects of 
the BCS, then we need to consider whether our so-called less-
restrictive alternatives, in other words, ways in which we can 
achieve the benefits of the BCS with fewer of the harmful 
effects. For example, would a playoff provide the same benefits 
of the BCS without the harmful effects? I am interested in 
hearing from the panel members on all of these issues. What are 
the goals, potential harms, and benefits of the BCS system, and 
how else could we operate the bowl system.
    Mr. Chairman, our scrutiny should not end with the 
antitrust analysis. As I mentioned, the bowl system needs to do 
more than survive legal scrutiny. It also must be fair.
    I worry particularly about the agreements between the BCS 
conferences and the non-BCS bowl games. The Cotton Bowl, for 
example, automatically matches a Big 12 team against a team 
from the SEC. The Peach Bowl automatically matches an ACC team 
against an SEC team. Arrangements such as these are common and 
they completely foreclose any chance for worthy teams outside 
of the BCS conferences to earn spots in many non-BCS bowls. 
Many of these bowls might act as catalysts for non-BCS programs 
to improve their national visibility, to become more attractive 
for potential recruits, and to compete more effectively against 
the BCS conference programs, but under our current system, non-
BCS teams are almost totally shut out of this system. I think, 
Mr. Chairman, we must examine why non-BCS bowls select teams in 
the manner that they do.
    Mr. Chairman, I think we have a lot to discuss today in 
looking at the competition and fairness issues that the bowl 
systems raise and I thank you very much for holding this 
hearing.
    Chairman Hatch. Thank you, Senator. We appreciate your 
Chairmanship of the Antitrust Subcommittee and your interest in 
being here today.
    Senator Sessions, we will turn to you.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I think it is a 
healthy thing to discuss these issues. I do hope that this 
Federal Government does not find itself in a position of 
passing laws, trying to decide who goes to the bowl 
championship and who ought to be number one. Alabama claims, I 
think, 12 national championships. Several of those are 
disputed, but we believe they won it every time. Others claim 
they won it some of those years. I mean, my heart is not broken 
that somebody else claimed the national championship in one of 
those years.
    I really don't want to see us go to a playoff game. I think 
we are getting close enough to picking the national champion 
now. I noticed just a few weeks ago, by chance, that now teams 
are playing 12 football games a year, regular season. Just a 
few years ago, it was ten. Then you have got an SEC 
championship game on top of that, and then a bowl game on top 
of that. So I am a little dubious about us trying to 
micromanage college football and directing that we ought to 
have a playoff system that I am not sure would be good for the 
players or for the system. As a matter of fact, I would like to 
see us drop one of those games, it seems to me.
    Mr. Chairman, there are a lot of ways to do this. I know in 
the Tulane situation, they weren't ranked in the top. I think 
they were ranked tenth, and maybe that was unfair, but how do 
you rank a team? One thing I do believe is you have got to have 
a strength of schedule. That has got to be a part of it. 
Alabama started off with Oklahoma the last 2 years and didn't 
come away with a win. Auburn lost to Southern Cal 2 years in a 
row; lost one, won one with Syracuse. Would those teams take 
those games if they knew that strength of schedule had no 
impact on their chance to be a national champion? They would 
take the easier games.
    So it is a difficult, difficult situation. I think the BCS 
was designed to sort of break up these contracts between 
conferences and bowls and to provide at least a chance of 
having one good national championship game, and pretty much, it 
has worked. Mr. Cramer at the BCS came up with this convoluted 
system, but it seems to be working. I think the public would 
pretty much agree that the top two teams are ending up in the 
championship series.
    I guess we could discuss, and I would like to hear, whether 
people believe a playoff is necessary. I am dubious myself. It 
is easy to say a playoff is the answer, but a football game is 
a week's preparation. It is a big deal. Unlike basketball, when 
you can play games back to back, you just can't do that in 
football. It is stressful on the players and injuries are a 
problem. It just can't be done. I think these are youngsters 
and there is a limit to how much we ought to ask of them--we 
may be asking them too much already. Thank you.
    Chairman Hatch. Thank you, Senator.
    We have a distinguished panel of witnesses here today. I 
would like to thank each of them for testifying at this hearing 
today.
    First, we are going to hear from Dr. Myles Brand, President 
of the NCAA. Dr. Brand, I want to thank you for the effort you 
made to get here today. I think it is important that we have 
you. I know that you need to leave by around noon, but I don't 
think that is going to be a problem.
    Next, we have Chancellor Harvey Perlman of the University 
of Nebraska at Lincoln. Mr. Perlman will be speaking on behalf 
of the BCS schools.
    After Mr. Perlman, we will hear from Dr. Scott S. Cowen, 
President of Tulane University. Dr. Cowen is the President of 
the Presidential Coalition for Athletics Reform, which consists 
of more than 50 non-BCS universities that have concerns about 
the current bowl system.
    After Dr. Cowen, we are happy to have Mr. Keith Tribble 
here, who is here in his capacity as Chairman of the Football 
Bowl Association.
    And saving the best for last, we will be pleased to hear 
from Coach LaVell Edwards, former head football coach at 
Brigham Young University. LaVell Edwards is truly one of the 
most talented, respected, and beloved coaches in the history of 
college football. Under the tutelage of Coach Edwards, the BYU 
Cougars accumulated 257 victories in 29 years and Coach Edwards 
led BYU to 20 conference championships, took his team to 22 
bowl games, and won a national championship in 1984. He was 
named National Coach of the Year twice, in 1979 and 1984. So, 
Coach, we are happy to have you here. We know it has been an 
inconvenience for you to come, but we are happy to have you and 
Patty with us today.
    We will start with you, Dr. Brand, and go right across the 
table.

   STATEMENT OF MYLES BRAND, PRESIDENT, NATIONAL COLLEGIATE 
          ATHLETIC ASSOCIATION, INDIANAPOLIS, INDIANA

    Mr. Brand. Thank you, Chairman Hatch. I appreciate the 
opportunity on behalf of the NCAA for the invitation to be here 
today.
    It has become surprisingly apparent to me since assuming 
the position of NCAA President last January that there is a 
confusion in the public and media with regard to what the NCAA 
is, where its role as national office ends, and where the role 
of the NCAA as a membership association begins. With every new 
issue that emerges in the media, there is the expectation that 
the national office and I, as President, should exert authority 
to set things right.
    In fact, the national office and the NCAA President have no 
authority other than that explicitly granted by the more than 
1,000 member colleges and universities. This is a critical 
point. The NCAA is not an all-powerful presence and the NCAA 
President is not the omnipotent czar of college sports. Rather, 
the NCAA is an association made up of universities and colleges 
that acts only after considerable deliberation, reflects the 
majority will of the membership, and authorizes the national 
office to execute its decisions. The member institutions retain 
far more autonomy over their athletics programs than they cede 
to the NCAA.
    The association's three membership divisions each have 
their own governance structure. In Division I-A, decision 
making is in the hands of 18 university presidents appointed by 
the conferences to a board of directors. Division I is further 
subdivided in the sport of football into three parts, I-A, 
consisting of 117 schools with the broadest financial 
investment; I-AA, which offers fewer football scholarships; and 
I-AAA, which does not sponsor football at all.
    There are NCAA football playoffs in Divisions I-AA, 
Divisions II, and III, each having been established by a vote 
of the member schools. The membership in Division I-A has never 
voted to conduct an NCAA football championship. Instead, I-A 
has a tradition of post-season football participation through a 
series of bowl games conducted during the Christmas and New 
Year's holidays.
    Unlike the NCAA's administration of other championships, 
its role in I-A post-season football is minimal, focused 
primarily on a certification process. The association's 
involvement in I-A football was significantly diminished in 
1982 when the U.S. Supreme Court ruled the NCAA's regular 
season television contract a violation of the Sherman Antitrust 
Act. As a result, schools negotiate television contracts 
through their conferences. The 64 BCS schools have further 
negotiated joint television contracts for the four major bowls.
    The goal of the BCS is, through the bowls, to match the 
number one and number two teams in a season-ending game. It is 
focused on post-season events. Participation in the 64 BCS 
schools and four major bowls of the series--Rose, Orange, 
Fiesta, and Sugar--has long been dominant.
    Currently under debate is access to the BCS bowls by the 
non-BCS conference institutions. These 53 schools have formed 
the Coalition for Athletics Reform. Now, many of the media and 
the public favor a full Division I-A playoff not unlike that of 
the basketball tournament. I do not, not because I believe it 
is academically unsound, but rather because it would diminish 
the tradition and benefits of the bowls. The addition of a 
post-bowl game or another BCS bowl, while still controversial, 
may be worthy of consideration.
    I certainly understand the concern for greater access to 
the major bowl games. For those who assign football a high 
priority in their expenditures, there should be a fair means of 
competing for post-season play. This is, I believe, the essence 
of the Coalition's position. No school, including the BCS 
institutions, should be disadvantaged by any new approach. In 
that regard, I do not favor redistribution of current revenues 
that accrue to the BCS universities through their football 
media contracts. The current revenue structure is a result of 
the free market system at work. Any changes to the current 
approach must add value for all participants.
    On September 8, I facilitated a meeting where the 
representatives of the BCS and Coalition schools began a 
conversation to address these issues. I am pleased to report 
that the meeting accomplished more than anyone would have 
expected. All the participants emerged from the meeting with a 
greater appreciation for those things they have in common as 
well as respect and understanding for the differences. These 
presidents have agreed to meet again November 16 to consider 
post-season football options put forth by their fellow 
presidents and their conference commissioners.
    This is the preferred approach to resolving differences. 
Intervention by external bodies, including the courts, will be 
counterproductive. Ultimately, the university presidents are 
the decision makers and I have confidence that they will be 
statesmen and women. I urge the Committee to encourage the 
Division I-A institutions, as you have, to come together, 
discuss their issues in good faith, and find solutions that 
advantage intercollegiate athletics and higher education as a 
whole, and I thank you.
    Chairman Hatch. Thank you, Dr. Brand.
    [The prepared statement of Mr. Brand appears as a 
submission for the record.]
    Chairman Hatch. Mr. Perlman, we will turn to you.

   STATEMENT OF HARVEY S. PERLMAN, CHANCELLOR, UNIVERSITY OF 
              NEBRASKA-LINCOLN, LINCOLN, NEBRASKA

    Mr. Perlman. Thank you, Mr. Chairman. The Bowl Championship 
Series is a limited arrangement designed to create for post-
season college football a national championship game and to 
avoid an NFL-style playoff system, which most university 
presidents oppose. I would be happy to talk about why that 
occurs in the questioning if it makes sense. But what I would 
like to do is to talk about three myths that are perpetuated by 
the critics of the BCS and to give you our perception of them.
    The first myth is that the distribution of revenue from the 
BCS has created the haves and have-nots in college football. 
This myth fails to account for the economic realities of 
college athletics. Let me use my own school as an example. 
Nebraska receives approximately $1.2 million annually from the 
BCS distributions. By contrast, we earn about $3 million from 
each home game in a stadium that seats 77,000 fans and for 
which we have had over 200 consecutive sell-out crowds.
    The total budget for Nebraska athletics and for other 
schools that have sustained success is in the $50 million 
range. For the most part, these funds come entirely from 
athletic revenues. My own athletic department is entirely self-
supporting and, in fact, contributes $1.5 million annually to 
the academic programs of the university. If all of the net BCS 
revenue were equally divided among all the Division I-A teams, 
regardless of their participation, each school would receive 
about $750,000.
    There are, to be sure, major disparities in wealth between 
football programs in Division I-A, but it is not the product of 
the BCS. Rather, they are the direct result of the passion and 
generosity of our fans and the investments we have made in 
stadiums and other facilities. What critics are asking is to 
share in money they did not produce, to, in effect, have 
Nebraska fans or students or taxpayers subsidize their athletic 
programs. But even with such sharing, the amount of funds in 
the BCS is insufficient to make a noticeable dent in any 
disparities that exist.
    Myth two is that we have denied access to teams or student 
athletes for the opportunity to play in a national championship 
game. This is an argument that is emotionally charged but empty 
of substance. Any Division I-A team has access to the BCS. Any 
team that is ranked in the top six at the end of the season has 
automatic access. Any team that is in the top 12 may be chosen 
by the bowls for two at-large positions.
    Even prior to the BCS, the participants that are now in the 
BCS bowls came almost exclusively from BCS conferences, with no 
opportunity for other conferences to participate. Now they have 
such opportunities by winning on the field over the course of 
an entire season. The BCS did not alter the landscape of who 
played in the major bowl games. This was and still is dictated 
largely by networks and bowl committees who want the best teams 
and the teams whose fans are likely to fill their stadiums.
    Myth three is the fairness myth, that somehow it is unfair 
for these non-BCS schools not to have a visible role in the BCS 
even though they have not fielded highly competitive teams on a 
sustained basis. The argument is too broad and has very serious 
implications.
    My university competes with other universities on a wide 
range of issues beyond football. We compete for students, for 
faculty, for research grants, for recognition. Our success in 
this competition is determined by our natural advantages, our 
traditions and location, the support of our constituents, and 
most importantly, by the strategic decisions we make in 
directing our resources.
    All of the major universities can point to some programs 
that are highly ranked, whether they are academic or athletic. 
This success did not happen by accident but by the choices we 
made and the context in which we operate. A law student who 
attends a Midwestern university has less access to employment 
opportunities in a Wall Street law firm than those who attend 
Harvard, even though many are just as bright and well trained. 
A student who wants to be an oceanographer will find it very 
difficult to do so by enrolling in Nebraska, just as a student 
interested in agriculture would be disadvantaged going to 
Harvard. Similarly, a student who wants to maximize his chance 
of playing for a national championship in football will most 
likely enroll in a school that has a history of football 
success.
    The strength of American higher education is in its 
diversity. We all have areas in which we excel. Why is it valid 
to only claim that those who happen to excel in football are 
being unfair in doing so? Why shouldn't we open up access to 
endowments, to tuition income, to nationally recognized 
faculty, to Federal grants, to gifted students under a similar 
theory that it is unfair for any institution to be more 
successful than any other institution?
    I thought that fairness in our society meant that if you 
worked hard, if you made the right decisions, if you were able 
to retain the allegiance of customers or patrons, and if you 
were successful, you should be able to enjoy the benefits of 
that success.
    Notwithstanding our view that the BCS arrangement is wholly 
appropriate, I assure you that the BCS presidents are exploring 
in good faith with the other five conferences to see if there 
are ways to improve their situation without diminishing ours. 
We are doing so because we are colleagues, not because we fear 
antitrust inquiry or other legal action. I believe all of us 
recognize that any proposal that might emerge from those 
discussions will have to be tested in the marketplace to see if 
it has any economic value.
    I thank you very much for this opportunity and I will be 
happy to respond at the appropriate time to any questions.
    Chairman Hatch. Thank you, Chancellor.
    [The prepared statement of Mr. Perlman appears as a 
submission for the record.]
    Chairman Hatch. Dr. Cowen?

STATEMENT OF SCOTT S. COWEN, PRESIDENT, TULANE UNIVERSITY, NEW 
                       ORLEANS, LOUISIANA

    Mr. Cowen. Chairman Hatch and esteemed members of the 
Committee, thank you for inviting me to address the issue of 
fairness and access, or lack thereof, in the Bowl Championship 
Series. I am here today representing a Presidential coalition 
from more than 50 universities which are not part of the BCS. 
These universities represent approximately half of all Division 
I-A schools. I want you to understand that this issue is really 
about creating a just system for millions of fans and for over 
13,000 student athletes, including the 5,000-plus young men who 
play football at the 53 schools not in the BCS.
    My commitment and passion for this subject is borne out of 
respect for these young people. Have you ever had to stand in 
front of a top ten-ranked team and tell them there was no 
opportunity for them to play in a BCS bowl, much less the 
national championship, because of an unjust system? I have, and 
it is not a situation I want anyone else to have to experience.
    The Coalition's position is simply this. The BCS is an 
unnecessarily restrictive and exclusionary system that results 
in financial competitive harm to the 53 Division I-A schools 
who are not part of the arrangement, even though all of these 
schools must meet the same membership requirements. From our 
perspective, the BCS is unjust and unjustifiable.
    Let me tell you what this issue is not about. It is not 
about who invests more money in their football programs. It is 
not about what system was in place prior to 1998. It is not 
about us wanting to transfer money from one university to 
another. These arguments, or ones like them, are merely 
smokescreens that fail to address the real issues. They are 
intended to divert us from the fact that the BCS is an anti-
competitive and highly exclusive system created in concert by 
six conferences, four bowls, and a TV network. The fact that 
the goal of determining a national championship can be 
accomplished in a much less restrictive manner makes the 
current BCS system an even more problematic one.
    Our legal concerns with respect to the university have been 
thoroughly vetted by the Coalition's legal counsel, Covington 
and Burling, and we are convinced the BCS presents significant 
antitrust issues. However, we also believe these concerns can 
be addressed by modifying the BCS system in ways I will 
describe momentarily.
    The BCS needs to be significantly modified because it 
severely limits access to post-season play through its system 
of automatic qualifiers for favored conferences, preferential 
treatment of Notre Dame, statistically suspect ranking system, 
and interlocking arrangements with the major bowls and a 
television network. This nationwide web of competitive 
restrictions is a far cry from the old traditional bowl system.
    In the past 25 years, Florida State University and the 
University of Miami grew from independent regional teams into 
national football powers. It is unlikely they could have 
achieved this success in the face of today's BCS restrictions.
    The current BCS system has created significant branding, 
competitive and financial disparities between those schools in 
the BCS and those outside it. For example, since the inception 
of the BCS arrangement in 1998, the BCS conferences' 63 schools 
have shared a pot of approximately $450 million, while the 
other 54 Division I-A schools shared $17 million. Yet, we are 
all part of Division I-A. In other words, 96 percent of the 
revenues go to BCS schools and four percent to the remaining 
Division I-A schools, even though we account for approximately 
half of all Division I-A. This financial disparity is a 
consequence of a highly restricted system, not one based on 
free market principles.
    In addition, the BCS causes disparities that go beyond 
money. They affect Title IX, recruiting, facilities, the public 
perception of schools, and the very survival of many athletics 
programs. We believe the current system can be fixed by 
replacing it with one that has the following characteristics.
    One, a system that is fair and inclusive.
    Two, it fosters a unified Division I-A and enhances the 
vitality of all Division I-A programs.
    Three, it provides reasonable opportunity for all Division 
I-A football programs to have access to what are now referred 
to as the BCS bowls, including the national championship.
    Four, it meets the highest standards of legal soundness and 
is reasonably consistent with how national championships are 
conducted in all other NCAA-sponsored sports, including 
Division I-AA football.
    Five, it respects the historical role of the bowl system 
and further enhances the value of post-season play for our 
fans.
    And finally, it allows our student athletes to realize 
their competitive dreams.
    Our Coalition will offer approaches with these desirable 
characteristics at our next meeting with our BCS colleagues on 
November 16. The Coalition believes our differences with the 
BCS representatives will be successfully resolved because we 
all share the same common goal, doing what is in keeping with 
the highest standards that guide our universities.
    This hearing is an important part of the resolution process 
and we want to thank the Committee once again for recognizing 
the importance of this issue.
    Chairman Hatch. Thank you, Dr. Cowen.
    [The prepared statement of Mr. Cowen appears as a 
submission for the record.]
    Chairman Hatch. Mr. Tribble, we are happy to have you here 
and look forward to your testimony.

    STATEMENT OF KEITH R. TRIBBLE, CHAIRMAN, FOOTBALL BOWL 
                  ASSOCIATION, MIAMI, FLORIDA

    Mr. Tribble. Thank you. Chairman Hatch, Senator DeWine, and 
Senator Sessions, my name is Keith Tribble and I am the Chief 
Executive Officer of the Orange Bowl Committee, a not-for-
profit organization that produces the annual FedEx Orange Bowl 
and its ancillary events. I also appear today as the Chairman 
of the Football Bowl Association and its membership of 28 
individual bowls, virtually all of which are nonprofit 
organizations.
    On behalf of the Orange Bowl Committee and the Football 
Bowl Association, I would like to thank you for the opportunity 
to discuss the merits of the college football bowl structure. 
Although the Orange Bowl is a participant in the Bowl 
Championship Series, I am not appearing here today in that BCS 
capacity.
    The Football Bowl Association was formed in 1983 to provide 
a forum for bowl issues, to ensure that the quality of the 
bowls is maintained, and to promote the continuing respect for 
the bowls within intercollegiate athletics. Our organization 
today speaks with a unified and strong voice for the 
preservation of one of the Nation's greatest annual traditions, 
post-season football.
    A host Committee made up of community and business leaders 
manages each bowl game within the Football Bowl Association. In 
South Florida, the local organization producing the FedEx 
Orange Bowl is the Orange Bowl Committee. Since 1935, our 
mission has been to maintain a self-sustaining, independent 
organization supporting and producing activities and events 
that enhance the image, economy, and the culture of South 
Florida. I would like to point out that the Orange Bowl 
Committee proudly has Senators Bob Graham and Bill Nelson, as 
well as Governor Jeb Bush, among its membership.
    Simply stated, for the past 90 years, bowl games have been 
the heart and soul of college football. The system has never 
been better. I would like to identify eight key areas that 
outline the merits of the bowl system.
    The first one is participation. More teams participate in 
college bowl games than ever before. Fifty-six out of 117 
Division I-A football teams will play in a post-season bowl 
game this year. Seventy-nine teams have participated in bowl 
games at least once during the past 5 years. Approximately 
5,000 student athletes, 11,000 college band members, 1,000 
cheerleaders, and millions of fans will take part in this 
tradition.
    Number two, experience. Student athletes, alumni, and fans 
annually take part in the traditional college bowl experience, 
typically encompassing a week of special activities. Across the 
country, from Georgia to Texas to Idaho to California, no other 
post-season sports model is as unique as that in college 
football.
    Number three, fan attendance. Fan attendance is at an all-
time high in post-season football. A record 1.4 million fans 
attended bowl games last season. This figure represents 85 
percent of total stadium capacity.
    Number four, television viewership. The growth of 
television viewership for post-season football has reached 
unsurpassed levels. Last year, a record television audience of 
117 million households watched college bowl games on six 
national networks.
    Five, financial contributions to higher education. College 
bowl games contribute a huge amount of money to higher 
education. Collectively, the bowls have paid out an outstanding 
$800 million over the past 5 years and will pay out a record 
$185 million this upcoming bowl season. It is projected that at 
least $2.1 billion will be contributed over the next 10 years.
    Six, economic impact. Bowls are a boost for the local 
economy and help promote the local tourism industry. This past 
bowl season, 28 bowl games generated an estimated $1 billion 
worth of economic impact for their host communities.
    Number seven, the importance of the regular season. Bowl 
games bring a measure of importance to the regular season not 
seen in any other sport. No other collegiate sport plays as few 
regular season games as football, and every game means 
something. Conference championships mean something.
    And number eight, the charitable contributions. In addition 
to the NCAA institutions participating in post-season college 
football, bowls also contribute significantly to local 
charities and causes.
    Bowl games have been a historic part of this country for 
almost a century. They have provided some of the greatest 
moments in college football history and add to the pageantry, 
color, and excitement of this fabled game. Indeed, college 
football is a proud symbol of America.
    On behalf of the Football Bowl Association and the Orange 
Bowl Committee, I would again like to thank you for allowing me 
to appear here today before you.
    Chairman Hatch. Thank you so much.
    [The prepared statement of Mr. Tribble appears as a 
submission for the record.]
    Chairman Hatch. We will wind up with Coach Edwards. We are 
looking forward to your testimony.

   STATEMENT OF LAVELL EDWARDS, FORMER HEAD FOOTBALL COACH, 
             BRIGHAM YOUNG UNIVERSITY, PROVO, UTAH

    Mr. Edwards. Thank you, Mr. Chairman. I am very pleased to 
be here this morning. What I want to talk about today are 
dreams and opportunities.
    All of us dream about the great accomplishments we want to 
achieve in our lives. I have spent my life with young athletes 
and I can tell you that dreams are the fuel that drives them to 
excel. Now, there are dreams and there are fantasies. A dream 
can come true; a fantasy can't. The difference is opportunity.
    The problem with the Bowl Championship Series is that it 
prevents student athletes at 54 universities from achieving the 
dream of ending the season ranked number one. Being a national 
champion is only a fantasy for these players. That is because 
the BCS is stacked in favor of teams from their six-conference 
alliance who alone can play in the national championship game 
at a predetermined bowl game site. In fact, players from those 
54 non-BCS schools are the only college football players who 
can't compete for a national championship. Every other division 
in college football allow and offer their players the 
opportunity to compete for a national championship.
    Mr. Chairman, the BCS system not only disadvantages some 
players' ability to compete, but also negatively impacts all 
bowl games. In addition, it creates a two-tiered recruiting 
system, as well as an unfair imbalance between universities in 
terms of revenue derived from football.
    The national champion selection has altered greatly since 
1984, the year that we won the national championship. Under 
today's BCS scheme, that 1984 BYU team couldn't have played in 
the title game. The system wouldn't have allowed it to happen.
    Mr. Chairman, my fear is that if the BCS system continues, 
the gap between the elite college football programs and the 
rest of Division I-A football will continue to widen and many 
universities will be forced to drop or alter their programs 
altogether.
    I have talked today about the national championship game, 
but another consequence of the BCS setup is a negative ripple 
effect it causes for the rest of the bowl games. After locking 
up the top four games, teams from non-BCS schools are shut out 
from the next level of bowl games. The organizers of those bowl 
games extend invitations to second, third, fourth, fifth, 
whatever place in those alliance conferences, bumping the rest 
of us from the opportunity of playing in some of these games.
    Mr. Chairman, teams from the six conferences use a stacked 
deck to their advantage, namely in recruiting, what some will 
argue is the most important component of winning teams. At BYU, 
a traditional recruiting hurdle was encountering PAC-Ten 
coaches who would tell kids if they attended BYU, they would 
never play in the Rose Bowl. Well, that was difficult enough to 
contend with.
    After the formation of the 1996 Bowl Alliance, the 
recruiting hurdle was set even higher. With the BCS in place, 
PAC-Ten coaches and others could and would tell players not 
only couldn't they play in the Rose Bowl, but they couldn't or 
wouldn't play for a national championship game if they were to 
choose to enroll at school in Provo, and they were right.
    Mr. Chairman, over the past 20 years, parity has come into 
college football because of fewer scholarships that are offered 
annually. Many in the university community agree reducing the 
number of scholarships per team has been good for the game. 
Why, then, would the NCAA sanction a post-season system that 
congregates more power and revenue in fewer teams? It is 
inconsistent and counterintuitive.
    The BCS system is not good for the game and it is not good 
for higher education. Surely the NCAA and Division I-A football 
can join the other 22 intercollegiate sports and devise a 
system that determines a true champion, preserves the integrity 
of the game, and levels the playing field.
    Mr. Chairman, members of the Committee, right now, 
teachers, counselors, parents across the country are telling 
young men and women that if they work hard, commit themselves, 
and never lose sight of goals and dreams, they, too, can become 
a U.S. Senator. Every person in our country has that 
opportunity to turn dreams into a reality. It is the reason 
each of you is here today. The reason I am here is that because 
of this flawed BCS system, talented young athletes are denied 
an opportunity to make their dreams come true, and I believe it 
is wrong.
    Thank you very much.
    Chairman Hatch. Thank you, Coach.
    [The prepared statement of Mr. Edwards appears as a 
submission for the record.]
    Chairman Hatch. All five of you have given excellent 
testimony. We have a vote on and I am a little bit late for it, 
but I wanted to make sure I got through this panel. So we are 
going to recess until probably Senator DeWine gets back and I 
have asked him to ask any questions he has and anybody else who 
comes and I will come back as soon as I can.
    With that, we will just recess until we can get back, but I 
really appreciate all of you.
    [Recess.]
    Chairman Hatch. I am sorry to have us interrupted by roll 
call votes, but it is one of the necessary things around here, 
so I apologize to you. I note that Senator DeWine is here.
    Let me just start, with you, Coach Edwards. I know you are 
the best and I don't know anybody who doesn't respect you as a 
human being, as an honest person, as a great coach, and as 
somebody who really has done an awful lot for college football 
and pro football. I have a great deal of confidence in you. 
What is the answer to this? What would you suggest we do, or 
that the respective parties do, to resolve this? If there is 
some way of doing it within reason, it would seem to me people 
ought to consider that. Do you have any ideas there?
    Mr. Edwards. Well, one of the great advantages I have right 
now is the fact that I am not working for anybody and I am--
    [Laughter.]
    Mr. Edwards. --I am not associated anymore with a 
university or with a bowl game or whatever else.
    Let me begin by saying, number one, that I am in favor of 
keeping the bowl games as we have it. I have seen a lot of 
plans where people would like to incorporate the bowls in some 
kind of a playoff. I think that would minimizes the bowls.
    What I would like to see happen is they can expand the four 
BCS bowls now to possible six and then at the end, after those 
six games are completed, have a one-game playoff with just two 
teams. They would have to seed them or however they want to do 
it. But they could create a couple of spots.
    I will tell you right now, unless you are playing in the 
championship game, the other BCS bowl games, are losing 
interest more and more every year. I watched the Orange Bowl a 
couple of years ago when Nebraska was playing in it and I saw a 
lot of empty seats in the stadium, which you never saw before 
with a Nebraska team traveling anywhere. There are a lot of 
issues dealing with that.
    I believe that you could take the non-BCS schools and have 
a one-game playoff similar to what people are having--it 
wouldn't even be a playoff, it would be tantamount to a 
conference championship game. I think the only reason the ACC 
has raided the Big East Conference was to get three premier 
teams so they can get to 12 total so they can have a conference 
championship game. They tried to seek permission from the NCAA 
to get a championship game with only 11 teams and they were 
denied, so now they go out and pick up Boston College to reach 
the number necessary.
    We could take the four conferences in the non-BCS schools, 
have a one-game playoff, take the champion of those two, and 
play in one of these six BCS games. That would still give them 
the opportunity--when I say them, speaking to BCS--they could 
still take--they would have spots there in those games, and 
every game would have meaning, which it doesn't have right now. 
Any spin they want to put on it, that is simply not the case. 
And then take the two top teams from that game and have one-
game playoff.
    I don't think it would hamper at all the revenue that they 
are receiving now. In fact, I think it probably would even 
enhance it with this one-game playoff.
    And you are not obligating--and we talk about the players 
suffering, late in the season, whatever else. In 1996, we 
finished a season 14 and one. We were denied access to the--
even though at the end of the season, we were 13 and one, the 
first year of the Bowl Alliance, we were ranked number five in 
the Nation. We never even got a smell as far as getting into a 
BCS game. But we were invited to play in the Cotton Bowl and 
the Cotton Bowl was a marvelous experience for us. It was a New 
Year's Day and it was a great excitement, although we were 
disappointed for not getting a BCS game, this was great. Now, 
we can't even get the Cotton Bowl, we can't get a number of 
bowls.
    So it truly is unfair and I do believe that there can a 
system worked out that is not going to take any money away from 
them and come up with a system that would allow an opportunity 
or an access and bring a little bit more fairness into the 
whole system.
    Chairman Hatch. You also mentioned the difficulty of 
recruiting.
    Mr. Edwards. Recruiting?
    Chairman Hatch. Yes.
    Mr. Edwards. Oh, no question about it. I mean, that issue 
comes up all the time. Recruiting is a tough situation. If you 
are out in the middle of nowhere, as Nebraska and other 
schools, it is tough. You have to go a long way to get people 
to come to your school. The closest for us is the West Coast 
because of the nearest part of the population. Now, we have 
always fought the battle of the Rose Bowl. That was one of 
those realities.
    But they just keep adding things now. We don't have the 
benefit of even going to two bowl games--our conference started 
the Fiesta Bowl and the Holiday Bowl. Pluse others close to us. 
It is not fair, and not only that, it is not right. It is not 
just.
    Chairman Hatch. Thank you. Mr. Perlman, you argue that 
BCS's revenues constitute a very small part of the overall 
athletic program revenues at your university. Given that, why 
are you so vehemently against letting non-BCS schools even have 
the opportunity to compete with you for that revenue?
    Mr. Perlman. Senator, we are not against them having the 
opportunity to compete for that revenue. It is competition on 
the playing field. BYU in 1996, I believe, would have played in 
a BCS bowl. They were ranked fifth, and anyone in the top six 
automatically qualified for a major bowl under the BCS 
arrangement. It was the prior arrangement that prevented them 
from doing so.
    The issue isn't that. We have opened up access to bowls 
that before were not possible. The fact is that it is possible 
for a BYU player to play in the Rose Bowl now, where they would 
have never been able to do so before. It is also possible for a 
Nebraska player to play in the Rose Bowl, which was not likely 
before.
    The question is, how are you going to determine the 
national championship in an arrangement in which there are a 
lot of independent actors, where television networks and fans 
want to see teams that have had sustained competitive success. 
So there is no intent on our part nor in practice to preclude 
them from the opportunities to compete.
    Chairman Hatch. As you know, there are only four BCS bowls 
and only eight teams can participate and six of those spots are 
guaranteed to the champions of the six BCS conferences and, 
thus, only two slots available for all 111 remaining teams in 
both the BCS and non-BCS conferences. In addition, it is argued 
that the BCS ranking system that determines which teams will 
participate in the BCS bowls unfairly favors teams that are 
members of the BCS conferences. Do you dispute that, or--
    Mr. Perlman. Well, let me respond to both of those. The 
reason there are automatic qualifiers in the current 
arrangement was because the conferences that are currently part 
of the BCS had affiliation agreements with these four bowls 
prior to the BCS. So the question was, do we give up those 
affiliations in order to create the BCS. That could be argued 
one way or another, but it doesn't change the landscape by 
adding the BCS to that mix.
    The fact is that, again, if you look at the four bowls that 
constitute the BCS, throughout their history prior to the BCS, 
the teams that participated are largely, almost exclusively, 
schools that now currently are in the BCS conferences.
    So the question is cause and effect, and I guess our view 
is that the BCS has not changed the landscape of competitive 
equality. It has not changed the landscape of who plays in the 
BCS and who gets the money. The only change we have made is we 
have created a system where you could actually have a national 
championship game and we opened up access to schools that 
before had no access to those bowls.
    Chairman Hatch. Dr. Cowen, tell me whether you like Coach 
Edwards' ideas and answer Mr. Perlman why that is wrong.
    Mr. Cowen. I think both in substance and spirit, the BCS 
arrangement put in effect in 1998 is substantially different 
than what was there before, because what we do now have in 1998 
are six conferences, four bowls, and a TV network in a set of 
horizontal agreements where they then also determine how a 
national championship will be played. They develop the ranking 
system without consultation with 54 other schools. And this is 
substantially different than exists before. There was no 
national championship before.
    So I would say, first of all--and there is also a 
presumption that the system that existed prior to 1998 was a 
fair and legal one, and that was never really challenged even 
though Senator DeWine had wonderful hearings about it and 
raised a lot of issues.
    That is why I say, I think we really have to look at the 
substance of what is going on here. Six conferences, four 
bowls, one TV network, a set of horizontal agreements. They 
determine the ranking system. They determine the automatic 
qualifiers. They are the ones that gave preferential treatment 
to Notre Dame.
    Chancellor Perlman do agree on one thing, is access is a 
myth because there is theoretical access, which, in fact, 
exists, but practical access does not. So that is my view of 
the BCS.
    Now, secondly, about the solution, my critics on the other 
side always use as the straw man the deficiency of the 16-team 
NFL-style playoff. That conjures up everything that could be 
bad about college. And the fact of the matter is, we do 
playoffs in every other sport in the NCAA, including I-AA 
football. So the culture of playoffs is in the NCAA.
    And we say, well, we can't do it here because of student 
athlete welfare. Every university president would agree there. 
I just wish we would have consistency about student athlete 
welfare across all sports. Why all of a sudden is it only 
germane when it comes to football when you, in fact, in 
basketball play 35 games. Baseball plays 60 games. That is much 
more intrusive.
    So I think the arguments that I have heard in terms of not 
doing a 16-team NFL-style playoff are interesting arguments, 
but quite honestly, don't hold water when you really peel away 
the layers of the onion.
    Now, having said that, I think there is a way to do a 
modified playoff that is somewhere between a 16-team and what 
we have right now, and Coach Edwards did mention that. There is 
a way that you can respect the integrity of the existing bowl 
systems but let the championship game be after those bowl 
games. That doesn't mean it has to be a round robin. You can go 
right from 12 schools, if you had six bowls, let it get down to 
six winners and select out of those six who will play in the 
national championship game. By going to six bowls, you create 
more access points for other conferences so you have taken the 
fairness issue. So I think there is a modified playoff that 
would take care of everybody's concerns if, in fact, we are 
open to it.
    The last thing I would say, Senator, is that on November 
16, the coalition I represent is going to put a very concrete 
proposal on the table for our colleagues on the other side. It 
is going to be a principled solution consistent with what I 
gave in my testimony, but it is going to be very concrete about 
what we want. We are very optimistic, and I want you to know 
this, that our colleagues are open and sensitive to these 
issues and we will get them resolved.
    Chairman Hatch. Thank you. Coach Edwards, you wanted to 
respond.
    Mr. Edwards. I just wanted to make one comment in answer to 
what Chancellor Perlman said. He said had we in 1996, when we 
were 13 and one, under the system now, we would have been 
selected in 1998. That is not true, because in 1996, they did 
not have their formula. They have a formula now that simply 
would have preclude us because of our strength of schedule, 
plus other criteria in the formula.
    In 2001, BYU was 12 and zero after they had just finished 
beating Mississippi State at Mississippi State. Then 
unfortunately, they lost the next week at Hawaii. However, 
there were projections made based on their formula and whatever 
else. BYU would have never gotten higher than ten or maybe nine 
on the radar screen as far as that formula is concerned. So to 
say that the system had been in place in 1996 is simply not the 
case at all.
    Chairman Hatch. Okay. Senator Biden, we will turn to you.
    Senator Biden. Gentlemen, I again apologize for having to 
be down at this hearing on Afghanistan, and if this is 
redundant, Mr. Chairman, you tell me and I will read it into 
the record. But explain to me again why the playoff system in 
AA does not work, would not work, in big-time college football.
    Mr. Brand. May I try, sir?
    Senator Biden. Sure.
    Mr. Brand. The big difference in I-A football from 
everything else, I-AA football, from basketball, from all the 
other playoffs, are the bowls. That is the additional factor 
that changes the landscape. The bowls have a deep and important 
history, a part of football. We all know that. And I think 
everyone is wont to make that go away. We want to find a way--
    Senator Biden. That is not true, by the way. I mean, there 
are a whole lot of us in the East who don't give a damn, 
really, about the Rose Bowl. There are a whole lot of us in the 
East who don't give a damn about the Sugar Bowl. There are a 
whole lot of us in the East who don't give a damn about the 
Orange Bowl. If they are the only things there to get to play 
in, we care about them a lot. But there are a whole lot of us 
in the East who would much rather see a playoff system.
    But I want to know, what is the mechanical difference? Why 
mechanically will it not work? Why functionally would it not 
work in terms of stress on players or student quality of life 
or all these other things?
    Mr. Brand. There is no functional reason why it couldn't 
work. That is correct.
    Senator Biden. All right.
    Mr. Brand. But the desire by others to keep the bowls 
intact is what is leading in that direction. Now, what about 
the idea of having a post-bowl championship? That is--
    Senator Biden. What about the idea of having post-bowl 
games after the championship?
    Mr. Brand. That is what I just asked.
    Senator Biden. Oh, okay. I am sorry. I have got it. I 
misunderstood you. I apologize.
    Mr. Brand. And here is the question that has to be 
answered, if that makes sense. Some people claim that by doing 
that, you diminish the interest, fan attendance, and most 
especially the television-media interest in the bowls. Is 
that--if there were a post-bowl game. Is that true? I don't 
know. I mean, I think that has to be market tested. So the 
solution that has been proposed may or may not be a good one 
depending upon the market tests.
    Senator Biden. What would you say if the market tests were 
that you would find the television audience was three times as 
big for a national playoff as it would be for the Rose Bowl, 
the Cotton Bowl, the Sugar Bowl, or any of the four major 
bowls? Or let us assume that you took all four bowls and 
combined them, and I could show you--I can't--I show you the 
market test that a playoff for number one and two for the 
national championship would draw a larger audience than all 
four bowls combined.
    Mr. Brand. That would be a very important factor. Another 
factor you are going to have to consider is what is the impact 
on the local communities if the bowls are diminished, because 
they produce a lot of local economic development.
    Senator Biden. Well, I know that, but what about the impact 
on our local communities where the bowls aren't and where teams 
who otherwise might get to play in this are?
    Let me ask you one more question, and I am not in any way 
denigrating the bowls. I mean, my Walter Mitty dream for real 
wasn't to be a U.S. Senator. I actually thought I could be a 
flanker back for the New York Giants. I know that is 
ridiculous, but I really did think that--
    [Laughter.]
    Senator Biden. and I went off to school on football. I got 
a lot of football scholarship offers out of high school. I was 
a relatively good athlete, and like much of the rest of my 
life, it proved not to pan out.
    [Laughter.]
    Senator Biden. But at any rate, having said that, let me--
so I am not belittling the bowls. I mean, I understand the 
great tradition that they are and what they--but the bowls back 
in the days when I was coming up--I graduated from college in 
1965--the Rose Bowl was essentially a regional fight. No one in 
the East gave a damn about it. It was the pageantry. You turned 
on the Rose Bowl to see the floats.
    [Laughter.]
    Senator Biden. I am not being a wise guy. I am not being a 
wise guy. I went to Syracuse University. I mean, you know, the 
Rose Bowl was the Big Ten and the Pacific--that is what it was, 
basically. I mean, that is what it usually was every year. So 
it was a great tradition, but it was like the Army-Navy game. 
It is a great tradition but it doesn't mean anything except to 
Army and Navy.
    Chairman Hatch. You are losing the California vote, Joe.
    Senator Biden. No, I am not--
    [Laughter.]
    Senator Biden. Well, in addition to deciding I couldn't 
make it as a flanker back, I have concluded I can't be 
President right now, so I am not making any compromises here.
    [Laughter.]
    Senator Biden. But all kidding aside, one of the things 
that has happened is that--well, I shouldn't--the bottom line 
here is that what you really seem to be saying to me when you 
cut everything aside is that the only reason not to have a 
playoff to find out in a more legitimate way, in my view, who 
is the best team in America is that the regional revenues, the 
local revenues the bowls generate--which is a legitimate 
concern--for the cities in which they are held and the region 
in which they are held, and secondly, because of the total 
revenue produced from those bowls.
    I wonder, and I realize it is not exactly comparable, but 
is there any correlation between who watches what the market 
share for the Final Four in basketball is and what the market 
share is for any one of the bowls? Does anybody know that 
answer?
    Mr. Tribble. Senator--
    Senator Biden. I realize we are comparing apples and 
oranges.
    Mr. Tribble. I can speak directly on that particular 
question. I think last year, and I don't have the exact 
figures, but the championship game for the BCS did better than 
the final game of the Final Four in terms of the ratings.
    Senator Biden. Okay. You mean each one of the bowls did 
better than--
    Mr. Tribble. Collective, no, just the national championship 
game, the national championship game. The BCS national 
championship game--
    Senator Biden. Got you.
    Mr. Tribble. --did better than the Final Four game, the 
last Final Four game.
    Senator Biden. Got you.
    Mr. Tribble. So compare those apples to apples.
    Senator Biden. But we are talking about a single game. We 
are not talking about all four bowls, correct? Or are we?
    Mr. Tribble. We are talking about a single game, a single 
championship game.
    Senator Biden. A single championship game. Got you. Okay.
    Mr. Perlman. Senator, I wonder if I could respond.
    Senator Biden. Sure. Please do.
    Mr. Perlman. Because Miles--
    Senator Biden. Chuck Hagel told me to be very careful with 
you, whatever you said--
    Mr. Perlman. I appreciate the Senator's help.
    Senator Biden. So I understand. And he said he is not 
feeling very good these days anyway, the last couple--but go 
ahead.
    Mr. Perlman. I would just report to you on the playoff 
issue and what the university presidents I have talked with 
think. We have had a conversation of this among the presidents 
of the Big 12. I know the Big Ten and the PAC Ten presidents 
have had the same. And we do think it relates not just to the 
money or not just to preserving the bowl games, although the 
bowl games are important to us because they have been a long 
part of our traditions.
    But many of us do think it has academic consequences for 
student athletes. Football is a very demanding sport 
physically. It is also a very demanding sport in time. It is a 
sport that, right now, is played solely in one semester and it 
gives the second semester for student athletes to catch up on 
their studies--
    Senator Biden. Well, the truth is, even when I was playing, 
it was a two-semester sport. In your school, it is a 12-month-
a-year sport.
    Mr. Perlman. Certainly the conditioning is 12 months, but 
the question of being away and being at games is a single 
semester. The question about how many physically demanding 
games you can ask 17, 18, 19, and 20-year-olds to play is an 
issue, and there is no medical evidence one way or the other.
    We do not believe a playoff system would work well for our 
fans unless those--
    Senator Biden. Why are these same considerations not so 
dire for I-AA? I mean, what is the difference here? Why for I-
AA, which on balance have academically higher ratings as 
universities than you guys, why is it for them that it is not 
so damaging to student athletes?
    Mr. Perlman. Well, I can't speak for I-AA and I don't know 
the comparative data. All I can tell you is what university 
presidents--
    Senator Biden. The number of games, I think would be the 
same, right? Roughly, I mean. Are we talking about more?
    Mr. Tribble. Senator, as a former student athlete, former 
football player at the University of Florida, I can honestly 
tell you that--
    Senator Biden. You don't know anything about I-AA, being at 
the University of Florida.
    [Laughter.]
    Mr. Tribble. I can tell you the level of play is a little 
different--I think Coach can tell you that--between I-A and 
what he expects and the I-AA. It is a different game. It is 
just a totally different game, from a former student athlete 
standpoint.
    Senator Biden. No, no, I am a former student athlete, too, 
not as good as you, but I am a former student athlete, too. 
Even at a little old school like mine, it was a 30-hour-a-week 
job playing football.
    Mr. Tribble. Right.
    Senator Biden. And a lot of these I-AA schools, it is taken 
very seriously and it is a big deal and you do, at least at a 
little old school like mine, unless you started in another 
sport, you had to play spring football, and spring football 
wasn't just the 20 days. Spring football was the 20 days before 
and the 20 days after and it was a full-time job and you showed 
up and you had--now, you didn't travel. You didn't travel, that 
was the difference.
    So I am not suggesting the quality of the--I mean, it is a 
different level. Little old Delaware has an offensive line 
averages 314 pounds. I mean, these guys aren't--you know, this 
is not like when I used to play. These guys are required to be 
in the weight room 20 hours a week. It is--I realize you guys 
are the real deal. You guys are one click below the pros, and 
some would argue you are the pros and we should make it that.
    No, I am serious. As you well know, some people, like me, 
begin to think maybe we should just declare, look, you choose 
to be a school that is going to have, essentially have 
professional athletes and you can do that. But that is a 
different story. That is not about this.
    The point I am making is that although when I was playing, 
I would get hit by a linebacker who weighed 210 pounds and it 
hurt. Now you get hit by a linebacker that weighs 265 pounds 
and runs the 40 as fast as I can run and it is a different 
deal. I got that part. I understand that part. I remember 
seeing those black and blue dots, you know, when you get hit by 
guys like you.
    [Laughter.]
    Senator Biden. I remember my coach once saying to me that, 
look, the difference between playing--my high school. The 
difference between playing caliber high school football, 
caliber college football, and pro football is the following. 
For a guy like you, Biden, once a game, you may get your clock 
hit so hard you see those little black and blue dots. In 
college football at a competitive level, you are going to see 
those dots about every fourth time you get hit. In pro ball, 
you see those dots even before you get up on the line. I mean, 
it is just constant.
    [Laughter.]
    Senator Biden. So I got the difference in quality. I really 
do. But what I still don't get is why the pressure on I-AA 
athletes playing I-AA football--like, for example, you had a 
little old school that was I-AA that you all kind of made fun 
of, is now I-A and beat a number of the top--it beat two of the 
top ten teams and it won the national championship in I-AA 
every year, you know what I mean? They are not bad. A little 
school like McNeese State could take you to the cleaners every 
once in a while, Coach. You know, down in Louisiana, these boys 
take that football seriously.
    Mr. Edwards. That is why we didn't schedule them.
    [Laughter.]
    Senator Biden. Oh, by the way, that is exactly why you 
don't schedule them. No, I got it. So I am not trying to be 
humorous here, but what I am trying to get at is not suggesting 
that I-AA football is of the quality and the level of 
competition that, quote, ``big-time football'' is. It is not. I 
got that. But what I don't get is why that difference in 
quality--not intensity, quality--is, in fact, so stark that it 
is all right for the student athletes to play in a playoff in 
I-AA but it doesn't work for big-time football. I don't quite 
get that.
    Mr. Edwards. May I make just one comment. We may be the 
only Division I-A school that has played a 15-game schedule. I 
don't think anybody else has. We were 14 and one in 1996, the 
year that we were passed over by the Bowl Alliance, and I 
didn't notice anybody flunking out of school or jumping off a 
bridge or whatever else as a result of that season. That is 
just one experience we had.
    Senator Biden. My time is up and we probably are all 
thankful for that--
    [Laughter.]
    Senator Biden. --but I just don't quite get it, why it is 
that different.
    Chairman Hatch. Thank you, Joe.
    Senator DeWine?
    Senator DeWine. Thank you, Mr. Chairman. As I am sitting 
here, it sounds like 6 years ago when we held our hearing. I am 
not sure things have changed a lot. The witnesses are 
different, but the issues, I think, are pretty much the same 
and the arguments are pretty much the same. We have had six 
more years of experience.
    Let me approach this kind of as a fan. In Ohio, we have 
Ohio State and we have a lot of other good teams. We have the 
Mid-American Conference, for example. So we can approach it 
from several different perspectives in Ohio. I think you can 
appreciate that.
    I understand that a lot of this is about money. I 
understand that the bowls, for example, have to have teams in 
there that are going to attract fans. They have to get teams in 
there who the TV networks know will attract people who want to 
watch those teams play at night. They also have to have fans 
who travel well. They pick teams that fans will follow them. I 
understand that. I get that. I think we all do.
    From a fan's perspective, it seems to me that the current 
system does a good job, as well as can be done, of getting us a 
game, one game a year where we see the number one team and the 
number two team. That is never perfect. We can argue who is 
number one, who is number two, who is three, and maybe it is 
wrong, but it is probably about as good as we are going to get, 
and that is an improvement and I think most fans want to see 
that. So I think that is a positive.
    I think there is a problem, though, with the current system 
and I would like your reaction to this. When you have four 
major bowls and you have eight slots and you have six of those 
slots that are guaranteed already going in to certain 
conferences, and then you have a seventh slot that is going to 
go to Notre Dame if they are in the top ten, and so 
theoretically, you have got seven slots that are gone, off the 
table, in any given year. So you have got one slot left for 
everybody else.
    Now, let us start with Mr. Perlman. Tell me what is right 
about that for a fan.
    Chairman Hatch. By the way, this is coming from Ohio State 
himself, so--
    Senator DeWine. Yes, and I have already said I liked the 
last year. Let me tell you something, watching that game, past 
Ohio State wouldn't have been in a national championship game. 
We would have been at the Rose Bowl, and I would have been here 
arguing and saying we really were number one, and we won the 
Rose Bowl and we should have been number one, but, you know, 
some stupid people who were voting, the coaches and all these 
other different rankings, they didn't put us number one.
    So I am not saying we should even change our system. I am 
not making that argument. But what I am saying is the current 
system does a good job in giving us the number one and number 
two game, but it seems to me the rest of what we are doing 
poses a problem for fans and it poses a problem for all the 
other schools, and the schools who--kind of the Cinderella 
schools, who in any one given year may be--what are we playing 
now, 11 and zero, 12 and zero, ten and zero, whatever they are 
playing in any one given year, and who have a great year, and 
then they look up at the end of the year and they say, what 
about us?
    What do you do to those teams that say, well, the system is 
rigged now? And if your answer is it was rigged before, I get 
that, but I am not sure that is going to satisfy me if I am a 
young man or the coach of a team that has had a great year and 
here we are and we think we ought to be there, and you say, 
well, I could be in the rankings, but I am competing for one 
slot, one slot left.
    Mr. Perlman. Well, Senator--
    Senator DeWine. What is fair about that?
    Mr. Perlman. Well, first of all, I think you do have to 
take into account the fact that we basically have a playoff 
system in the fact that we play it off every Saturday during 
the regular season. And so the teams that are in those rankings 
have played strong teams and have been successful and that is 
fan-based. One of the concerns we have always had with the 
playoff is that it would diminish the value of the regular 
season.
    If you want to talk about Cinderellas, Northern Illinois 
would never have had its game televised last week nor had 
``Game Day'' appear on its campus if we were in a playoff 
system where they would never have emerged at the end. But they 
were the Cinderella team that beat three BCS teams and they got 
a lot of attention and it was exciting and agrees to that. But 
the structure--
    Senator DeWine. Well, you have got to explain that to me, 
because they were ranked and Bowling Green was ranked and that 
is why we got a good game. So you have to explain that to me. 
We had two teams that traditionally were not ranked. We had 
them ranked in the MAC, which was very, very unusual, and so 
the networks said, hey, this is interesting, and we had ``Game 
Day'' at the MAC and Bowling Green, Ohio, and we all thought it 
was a great deal. So I agree with you. We loved it.
    Mr. Perlman. If we were in the playoffs--
    Senator DeWine. And if you were Dick Durbin, you didn't 
like the outcome, but if you are Mike DeWine, you did, but that 
is okay.
    Mr. Perlman. If we were in a playoff system, that game 
would have been insignificant. That game would have been 
insignificant. Right now, every game you play, every single 
game you play is critically important if you have any--
    Senator DeWine. Let me just interrupt you. You could devise 
a system that was different from the old system. See, what you 
are saying--your argument would be, well, we would have to go 
back to the old system. What I am saying is the choices in life 
aren't just the old system and the current system. There could 
be another system which would not automatically say that 
certain conferences get six of the eight, plus Notre Dame can 
get seven. That is all I am saying. I am not advocating for 
that, I am just being sort of the devil's advocate here to get 
your answer.
    Mr. Perlman. There are other systems and maybe some of them 
would appear to be fair. You could take the top eight teams as 
ranked and put them in the bowl games. That is something that 
could be openly discussed.
    The actors here, however--I mean, there are other issues 
involved with doing that. The bowls want to assure that they 
have teams whose fans will travel because their economic 
survival depends upon it.
    Senator DeWine. Sure. Oh, I get it.
    Mr. Perlman. The networks want teams that will attract a 
fan base beyond their own. And so, yes, there are other systems 
that are, on one level may appear fair, but on other levels 
raise very difficult questions about the economics of these 
arrangements.
    Senator Biden. Could I interrupt and ask a question?
    Senator DeWine. Well, I have got a red light here, but yes?
    Senator Biden. I am confused. Assume you took the top eight 
teams. Is the suggestion that any one of those top eight teams 
are not likely to have the fan base that would travel? Is that 
what you are saying? In other words, only those in the 
conferences who have demonstrated they draw these large crowds 
would have enough of a fan base to travel? Is that the idea? I 
am not disputing it, I just want to understand what you mean by 
that.
    Mr. Perlman. There are teams that travel better than 
others. We have sort of been known for traveling well.
    Senator Biden. I mean, are there any teams that haven't 
traveled to the bowls? I mean, can you give me examples of a 
history when the Rose Bowl wasn't filled? Can you give me an 
example of when the Sugar Bowl wasn't filled? Can you give me 
an example when the Fiesta Bowl of late wasn't filled? I mean, 
I am confused by that one. That seems to be, in my old business 
as a lawyer, that seems to be a bit of a red herring, Mr. 
President.
    I mean, if you can show to me now when so-and-so and so-
and-so played in the Rose Bowl, they only had 70 percent 
capacity show up. That was it, and there were empty seats. Can 
anybody name for me any time when any of the four bowls we are 
talking about did not have a capacity crowd? Maybe that is 
true. I don't know. It is a genuine question. I may be 
mistaken. Or is it just they don't wear red?
    Mr. Perlman. Well, if they didn't wear red, they wouldn't 
be from Nebraska.
    Senator Biden. That is my point. No, I mean--I wish we 
would be a little more straight about this, you know what I 
mean? If there is evidence of that, I would like it for the 
record, that there are times when teams have been picked before 
to play in the bowls where people didn't show up and what would 
make anybody think that any university that made the top eight, 
that was in contention to be the national champion, would not--
we would not fill that stadium, whatever it was?
    Senator DeWine. Does anybody want to respond?
    Mr. Tribble. I will take an attempt at it, Senator. I can't 
recall of a specific time, particularly talking about the 
Orange Bowl, in the top eight, but I think when you get, in 
some instances, the top 12 or 15, depending on where the school 
ends up, it depends on how the school finishes. It could affect 
it.
    I think one of the things that Senator DeWine was talking 
about is that the bowls are very adamant that, you know, they 
have obviously been doing this for 90 years and the point of 
being involved in this business is to provide that economic 
impact and to provide opportunities for the schools in terms of 
the money we pay. But that is all based on a business model, a 
model that looks at which schools can travel, which schools 
have the appeal to television and so forth and so on.
    The one, I guess, good point about having a lot of 
potential at-larges, and yes, at some point we were looking at 
Northern Illinois because they had a potential in our game. But 
we were going to look at them just like the other six or seven 
schools that could have a possibility for a potential slot in 
our game and make a business decision based upon what is good 
for our area and what is good for our economy and what is good 
for producing the things that we need to do for the schools.
    Senator Biden. I appreciate your answer, but what about the 
teams that aren't in these conferences and the fans that aren't 
in these conferences? It looks un-American. It really does. It 
looks not fair. It looks like a rigged deal. It looks like if 
you have the biggest team, if you spend the most money, even if 
you have turn-out, not to have the best team that year, then it 
is rigged. It is just not American. That is how it comes 
across.
    Senator DeWine. Mr. Chairman--
    Senator Biden. Now, it doesn't come across in your 
conferences that way, but it comes across at Ohio University 
that way, which is not part of this. It comes across in a lot 
of these other places that way. I don't know, it just doesn't 
smell right.
    Senator DeWine. Mr. Chairman, in our previous hearing, 
there clearly was testimony--that is why I alluded to it in my 
statement--there clearly was testimony that certain teams, 
quote, ``don't travel well'' or fans don't travel well, and 
that was the testimony we had before. The allegation was that 
certain teams did not--their fans didn't travel and also that 
if they did travel, they didn't spend money. I know we had that 
testimony last time. I am not saying that is right, but that is 
what the testimony was.
    There were examples last year, when you got away from the 
top four bowl teams, I read in the newspapers, read on the 
sports page where certain teams or schools were required, if 
you were going to accept this bowl bid, you were going to be 
required to guarantee X-number of tickets, that your school had 
to buy X-number of tickets. Now, is that right, Mr. Perlman? 
That is not unusual.
    Mr. Perlman. No, that is common.
    Senator DeWine. You are going to have to guarantee, I don't 
know, 10,000, 15,000, 20,000, whatever it is number of tickets, 
and there were examples that I saw last year, at least one 
example I recall where a school had to eat some tickets, and 
they just had to guarantee X-number of tickets, so--
    Senator Biden. For the top four bowls, Senator?
    Senator DeWine. Not the top four, no, sir. Not the top 
four. But these are bowls you had heard about and bowls you 
watched on TV. So this issue does come into play, but I think 
your point is that on the top four, when you are dealing with 
the top four, that--
    Chairman Hatch. Their ability--
    Senator DeWine. --they are going to be sold.
    Chairman Hatch. Dr. Brand, we promised we would let you 
go--
    Senator DeWine. I thank you, Mr. Chairman, for my time.
    Chairman Hatch. --at 12. Do you need to leave.
    Mr. Brand. This is too interesting, Senator. Can I stay a 
while? I am having too much fun.
    [Laughter.]
    Chairman Hatch. We are glad to have you here, but we will 
understand if you have to leave.
    Mr. Brand. Thank you.
    Chairman Hatch. Senator Sessions?
    Senator Sessions. Thank you, Chairman Hatch. I love college 
football. I remember in the 1960's when my little senior class 
of 35, was graduating and we went to Montgomery. Our little 
group of five bought a $30-something bus ticket to Miami to the 
Orange Bowl to see Auburn and Nebraska play. We were convinced 
that no one could beat Tucker Fredericksen and Jimmy Sidel, but 
Nebraska did. Congratulations Mr. Perlman. So bowl games do 
have--you know, the thought of going off to some tropical 
paradise. There is a lot of history here and that is important.
    I think about this past Saturday when Alabama and Tennessee 
played. Both of them have had disappointing seasons so far. 
Neither one will be in the national championship game. A packed 
house at Tuscaloosa, almost 80,000 people, five overtimes, one 
of the great games in recent years, and it was just a 
magnificent sight and spectacle, really. College football is 
special.
    I think, Mr. Perlman, you touched on something that is not 
insignificant and that is what happens to the regular season 
games when you are not going to be in the national championship 
game? Nebraska plays Oklahoma or Oklahoma State or Texas and 
Auburn plays Georgia, the oldest rivalry in the South. Those 
games are important. I would kind of hate to have us suggest 
that the only thing that really counts in football is who wins 
this playoff, who gets hot the last week. We want a team to 
feel good about a seven-and-three, eight-and-two season. Mr. 
Brand, do you have any thoughts about that?
    Mr. Brand. I think the regular season games are absolutely 
important, and just as you say, I agree with you entirely, 
Senator, about the desirability for the fan base from the 
schools and we should never do anything to harm those. I concur 
with you entirely, Senator.
    Senator Sessions. And that is why the TV ratings are good. 
I am sort of surprised how many SEC games are shown in this 
area on television. I realize people who grew up in the SEC 
environment want to watch their teams wherever they are, and 
there are a fairly decent number here.
    Now, Coach Edwards' comments, I think, are not invalid. I 
think they have some validity to it. But I also have got to 
tell you, this knife can cut both ways. An eight-and-two 
Georgia team could beat one of these 14-and-zero teams from a 
smaller conference. Or you take a Florida team that plays 
Miami, or Florida State plays Miami and loses by one point. 
Florida State has all year played tough games and they lose one 
by a small margin, it does not mean they are not as good as a 
14-and-zero team who didn't have to play Miami.
    So these conferences come together and they band together, 
Mr. Perlman, and they choose the best competitive programs to 
be in their conference. We can see expansion interest in the 
ACC. They wanted the best teams they could get with the biggest 
stadiums and the strongest programs because that helps the 
conference, but it also increases the strength of their 
schedule, does it not, and increases the likelihood that they 
may not get to the end of that season undefeated?
    Mr. Perlman. It is hard for me to know whether it increases 
the strength of schedule or not. It may very well have that 
effect. Certainly--
    Senator Sessions. Depending on how good the team brought 
into the program, you are right.
    Mr. Perlman. You are exactly right--
    Senator Sessions. It may not be.
    Mr. Perlman. --and how many of the lower-tier schools of 
the conference they have to play because of the conference 
schedule.
    Senator Sessions. Well--
    Mr. Edwards. I was taken back a little bit by the comment 
that someone made about the Bowling Green-Northern Illinois 
game, that without the publicity of the game, its not meaning 
anything if we had a playoff. That is simply not the case. If 
we had a playoff, the winner of that conference is going to be 
invited to get into the playoffs. That part doesn't make sense.
    The problem with--you can have an eight-and-two team and 
you can have a seven-and-three team, but you know what? They 
still have the opportunity to get into this BCS thing. A 13-
and-zero Tulane team had no chance whatsoever and that is the 
inequity of the whole thing. All we are trying to say is the 
fact that there can be a way to work this out, to make it fair, 
but also that is not going to damage the system that you have 
in place today, and that is a closed monopoly on college 
football, any way you want to look at it.
    Senator Sessions. Well, I would say that maybe the system 
can be improved. I think the Bowl Championship Series was an 
improvement. Alabamians felt like the Rose Bowl entered into 
that contract between the Big Ten and the PAC Ten to keep 
Alabama from coming out there. They used to go out there and 
win, and I guess they probably didn't travel, and didn't have 
any money if they did, in the Depression days so they would 
probably rather have a team that could travel better. But they 
were shut out of that.
    And so I hope we are in a movement, I really do, that would 
provide more opportunity for openness. I really think we need 
to do that. But I am not unmindful of the great traditions of 
an Alabama or a Tennessee or an LSU or a Penn State, Ohio 
State, that carry the popularity, a Notre Dame team, that 
really drives the popularity of this sport. That is who people 
turn on their television to watch most of the time. They have 
those historic storied traditions, packed stadiums, bands, and 
all the things that just really make college football such a 
wonderful spectacle. I think it is the greatest sport there is. 
A great football game between two big teams in college is just 
unsurpassed. It is just magnificent.
    I don't know that some changes are going to ruin that. 
Coach Edwards doesn't believe it will, but I think we need to 
let our institutions here work together. The bowls have an 
interest. Television has an interest. They are paying the money 
to put it on and you need to have a game that people will 
watch. So all these things are factors.
    Mr. Chairman, I think it is great for us to have this 
hearing and discuss it. I think we ought to be careful that we 
don't let lawyers and politicians stick our nose too much into 
this subject.
    Chairman Hatch. Thank you, Senator.
    Dr. Brand, we realize your members are split on this issue, 
but you have heard a lot of criticism here today. You have 
heard Senator Biden say that this seems to be un-American, the 
way this works, and very prejudicial and not fair. I guess what 
I am saying is that you are an educator, you are a teacher. Let 
me ask you, do you think this system is fair or can we make it 
better?
    Mr. Brand. I think the decision makers, namely the 
presidents--
    Chairman Hatch. No--
    Mr. Brand. I am going to answer your question, sir.
    Chairman Hatch. I am asking you.
    Mr. Brand. I think the decision makers, the presidents, 
share your view and my view, as well, that they will do 
everything possible to make it fair, attractive to fans--
    Chairman Hatch. So that implies it is not fair.
    Mr. Brand. No, I didn't say that. They will do everything 
they can to make it fair, whether it has to be changed 
somewhat--I don't think radical change is in order, I really 
don't, in going for an NFL-type football approach on the one 
side and making no changes whatsoever on the other. I don't 
think those radical solutions are there. But there is a window, 
I think, to provide additional access for institutions and I do 
think that the presidents, the decision makers, will work 
towards that goal.
    I have confidence in them that they do want football to be 
successful. They do see the benefits, as Senator Sessions said. 
And they do want fairness. That doesn't mean equality for all 
independently of what you start with. It means opportunities 
based upon success on the field. So I think they will work 
towards that, but I don't think one should expect radical 
change from where we are right now.
    Chairman Hatch. Dr. Cowen, you wanted to comment.
    Mr. Cowen. Just a couple of comments, Senator Hatch, if I 
may. First of all, I would like to just comment on something 
Senator DeWine said, because it was very key, about the fans. 
You ought to know, in the last 3 months, there has been at 
least three national polls of fans, and in each poll, over 80 
percent indicated they want the BCS system changed. So the fan 
support out there is not for the BCS system if you could 
believe these polls.
    The second thing is I think there is a lot of mythology 
about the competitiveness of non-BCS and BCS schools. I don't 
know if you realize that in the last 5 years, in bowl games 
where non-BCS schools have played BCS schools, the record is 
eight and eight. So this mythology that somehow they are so 
much superior than we are doesn't exist in fact.
    The third thing, if you look at the ESPN ratings for games 
where non-BCS play non-BCS schools, those ratings are very 
comparable to when the BCS schools play each other. So that 
would indicate that the audiences out there want it.
    The fourth thing is, and this is the great irony for me, if 
the BCS schools are so superior competitively and they have 
invested so much money, why do they need all these 
restrictions? Because then, according to them, it will come out 
the same way anyway. So how on the one hand can you say we have 
invested all this money, this is a priority for us, it is a 
birthright, and then say, well, just in case, we are setting up 
all these restrictions to increase the probability. The logic 
of that doesn't strike me.
    Having said all that, Senator Hatch, my colleagues on the 
BCS side are good and honorable people. I know a lot of them 
personally, including my colleague to the right. I am totally 
comfortable that we will reach a settlement because I do think 
everybody is going to the table with an idea of fairness and 
openness and opportunity. So I am cautiously optimistic we will 
get it. There is no doubt in my mind the current system is 
unjust and unjustifiable. But I think it can be changed and 
preserve a lot of the things that are good about it and also 
make it a fairer system for all the rest of us who constitute 
Division I-A.
    Chairman Hatch. Let me just go back to Coach Edwards, and 
we will end this pretty soon. Senator DeWine's comments 
reminded me just a little bit of--Coach Edwards has one of the 
greatest senses of humor of anybody who has ever coached in 
college football and we all love him out there, but one time, 
Coach Edwards, he joked about BYU. He said, they don't travel 
well because BYU's fans arrive in town with the Ten 
Commandments and a 50-dollar bill and they leave without 
breaking either of them.
    [Laughter.]
    Mr. Edwards. And I got in trouble.
    [Laughter.]
    Chairman Hatch. Yes, he got in trouble for that comment. I 
am not--
    Mr. Edwards. But we always filled stadiums where we 
traveled, for the most part.
    Chairman Hatch. That is the point. There is a huge 
contingency all over this country of BYU fans that always fill 
those stadiums. But I just love that comment. That just tickled 
me to death.
    But Coach Edwards, and then Mr. Tribble, as well, could you 
comment on how important traveling well is in getting a bowl 
invitation? Go ahead.
    Mr. Edwards. Well, I don't think there is any question when 
you go to a bowl game that that is an issue that does come up. 
A couple of years ago, I don't know, three or 4 years ago, when 
New Mexico, I think, was ten and one and were not invited to a 
bowl game anywhere because the perception was that they didn't 
travel well. They certainly deserved to be somewhere because 
they had an excellent football team. I think that perception 
out there hurts and it creates a situation where it even 
continues to make it difficult for a team to get out from under 
this. I think that had they had a chance, I think that 
particular team would have traveled well, but that is just 
supposition on my part.
    But, you know, there are teams that travel well, but that 
is an issue. There is no question about it. Bowl teams always--
that is one of the number one considerations that they have, 
that and probably how they are going to sell on television.
    Chairman Hatch. Because of the great quarterbacks you 
developed over the years, BYU had a lot of non-Utahans, non-
Mormon people who supported BYU and just loved to see the game 
played the way you coached it. So they didn't have any trouble 
filling those stadiums, I have got to say that, in spite of our 
propensity to carry the Ten Commandments and a 50-dollar bill 
and not breaking either.
    Mr. Tribble?
    Mr. Tribble. Chairman Hatch, I agree with Coach. It is the 
number one issue that bowls look at. I mean, bowls are looking 
to see how many fans will travel to their areas, and that is 
not just the BCS bowls, that is all 28 bowls, and we make 
decisions based on that. We make decisions based on the alumni 
base, the appeal to television. So we have a business model and 
all of us have a business model that we have been using for 
over 90 years.
    An example is that last year, we had Iowa versus USC. Iowa 
had 40,000 fans that attended that game and USC had 15,000 to 
20,000. So the economic impact for our area was obviously 
tremendous. So we had a lot of people visiting our area during 
the time when, as we all know, we all need to stimulate the 
economy. So this, obviously, we do our part as a bowl to help 
that, and that is done in all 26 communities to help that part 
of it. But we do look at the fan support. We do look at the 
amount of fans that will travel as one of the criteria.
    Chairman Hatch. Thank you. Are there any further questions?
    Senator Biden. Yes. Could I ask one? I am confused about a 
few things. Let us assume that, for just the sake of 
discussion, as we say, to argue in the alternative, Mr. 
President, do you think that the four major bowls would not 
fill the stadiums if there was a national playoff and post-bowl 
play? Would you worry that they would not be filled?
    Mr. Tribble. Yes. I think from the Bowl Association's 
standpoint and from the BCS, and obvious, the BCS bowls are 
part of that, we are very concerned about anything that will 
really diminish the bowls. It has been said that it is akin to 
basketball, but basketball is different. We are talking about a 
sport that has to travel 30,000 to 40,000 people week to week 
and there are certain parts of the United States that an 
airline ticket will cost you $1,500 to travel to Miami, and if 
next week you are going to the Rose Bowl, that is another 
$2,000. Today, people just don't have that disposable income to 
be doing that kind of thing.
    So that is why we feel very strongly that the system that 
we have in place today is good. It has worked, and obviously, 
the BCS is part of that.
    Senator Biden. Okay. The second question I have is, 
President Perlman, you talked about the importance of the 
weekly games in a season. The Senator from Alabama talked about 
the spectacles, which I agree with him. I mean, it is 
incredible. One of the most exciting games I have ever seen--I 
didn't care about either team--was Miss playing Ole Miss and 
being in the Grove down in Ole Miss. I mean, it is an 
experience. It is an experience.
    But is anyone suggesting that if we had a different system, 
that Michigan and Michigan State wouldn't put 100,000 people in 
that stadium, or that Auburn-Alabama or Auburn-Georgia wouldn't 
put, whatever, 87,000 people in that stadium that week, or any 
of these great traditions would suffer week to week because 
there was a different system at the end determining who the 
national champion was? I mean, is that implicit in the concern 
about--I am not sure I understood this notion about affecting 
week to week.
    Mr. Perlman. Well, Senator, I don't think any system is 
going to keep us from filling our stadium.
    Senator Biden. Yes. I don't think so, either.
    Mr. Perlman. And I am certainly not an expert on this, but 
I am told there is at least evidence that suggests that the 
playoff system in collegiate basketball diminishes the value of 
the regular season, both in terms of television revenues and 
others. You know, it is--
    Senator Biden. But I don't understand--
    Mr. Perlman. It is not going to hurt our fans, but the 
question is, how enthusiastic are people not directly connected 
with a university going to be to watch it during the regular 
season.
    Senator Biden. Well, the point is that, you know, I don't 
know how--I mean, look. Dr. Brand, you said the NFL football 
model. A lot of us who are in States that don't have these big 
schools think you are an NFL football model. I am not being 
facetious. I am not trying to be a wise guy. They think you are 
an NFL football model. In every other way, you are a model of 
NFL football. All I have to do is go down the list of scandals 
every year that are legion. So nobody has to--I mean, the idea 
that the rest of the country out there that doesn't have a team 
in one of these six conferences, the idea that we don't look at 
you already and think you are an NFL football model, because 
that is what you are in the minds of many of us.
    I don't know that you all get what other people think when 
they are not in these conferences and I find it kind of 
compelling, what Senator DeWine said. You have got eight slots. 
At least six are guaranteed of the eight slots. And you get to 
determine the ratings and the rankings about what constitutes 
competitiveness. I mean, that is like talking about the fox 
guarding the henhouse. I mean, you get to determine what 
constitutes competitive. That is like us saying, you know what 
we are going to do? We will let each party determine when the 
election results turn in and whether or not it was fair based 
on the outcome.
    This patina of fairness and openness is just so much 
malarkey. There is no other place where you would say that a 
national championship or the champion or the winner has to be 
determined, which understandably, based on being weighted, 
based on their competition, and the six outfits that already 
get a slot are the ones that determine how to weight it. I 
mean, that is kind of interesting. I think you are all phony 
about that, not personally phony, but I think you are being 
disingenuous. There is nothing objective about this. There is 
nothing objective about it.
    Now, if you said, all right, what you are going to do is 
you are going to go out and the conferences and the other teams 
are going to submit the names of 15 people who each week will 
decide what the ratings are and there will be four independent 
folks that don't represent any conference in here or whatever 
sports writers, then, okay, I get that. There is no doubt it 
should be weighted, because, Coach, you are right. There are a 
whole lot of seven-and-three teams that could beat 14-and-zero 
teams.
    And the one incredible thing about college football, or at 
least used to be, is that what does matter, even more than in 
the pros, is what does matter is heart. There are those 
incredible games where the folks with less talent beat the 
folks with a great deal more talent. That used to be the single 
most exciting thing about football, college football.
    I am going to get in trouble here for saying this, but the 
reason I don't watch college football anymore, it is like pro 
football. Watching Miami--a wonderful school, by the way--play 
Florida State, I might as well turn on and watch the Eagles 
play the Packers. These are schoolboy athletes who have come 
out and made their way.
    I mean, you guys are operating in a--I just don't get it 
and the point I want to make is the idea that this thing--it is 
like Senator--he wouldn't mind my telling this--Senator Dodd 
tells a story. When he first got here as a young Congressman, 
he was under the--neither one of us served in the House, but he 
was serving in the House and they have a five-minute rule where 
you get to stand up in front of the chamber--usually no one is 
in the chamber--and you get the chance to make a speech. Here 
with us, the danger is you can get up at any time and make a 
speech if you want and there is no limitation.
    And he was making his first speech, he said, and I will not 
mention the other Congressman's name, but while he is standing 
in front of the House making a speech to essentially an empty 
chamber, he said this senior Congressman walked up and walked 
behind him and whispered. He said, ``Kid, you are acting like 
this thing is on the level.''
    You guys are acting like this is on the level. You guys are 
acting like there is an objective means by which we weight 
this. Maybe what you all should do is go out and find an 
objective means to weight it, not change anything, but not let 
you guys determine how to weight it. Anyway--
    Mr. Perlman. Senator, could I make one quick response to 
that?
    Senator Biden. Sure. Please.
    Mr. Perlman. I mean, it is clearly the perception that we 
control the rankings, and to be sure, we decide what elements 
go into the rankings. But each of those elements is out of our 
control. The fact is that we use the AP writers' poll, the 
coaches' poll, which includes coaches from Division I from 
these five conferences that are not part of the BCS. We use 
computer surveys that we have no control over. We use strength 
of schedule, which you can debate whether it is appropriate or 
not, but I think most of us intuitively think that the stronger 
teams that you beat, the better team you are. And we use wins 
and losses.
    So while, sure, we put it together and we said, these are 
the elements to be considered and here is how you figure it out 
and that creates a perception that we are in control, each of 
those elements, we have nothing whatsoever to do with.
    Chairman Hatch. Let me just say in closing that one thing I 
am getting about this is there will be an effort to try and 
straighten this matter out. Now, I am suggesting to you as 
Chairman of the Judiciary Committee that that effort needs to 
take place, because there are a lot of people very, very upset 
at what they consider to be inequities and justice here and 
partiality and, to use the term, maybe phoniness.
    So I am hopeful you are right, Dr. Cowen, that you can get 
together, all of your friends on all sides of this issue, and 
resolve this matter, because if it isn't resolved, it seems to 
me Congress could step in, because I do see antitrust 
implications here. Admittedly, admittedly, they are not clear-
cut, but I do see them and I see some real problems if that is 
the route that has to be taken, or if the Congress has to 
rectify this situation. But it is not right to not have 
fairness in a system that we all value very highly.
    So with that, I just want to compliment all of you for 
being here. We really appreciate you taking the time to be 
here. This has been a very, very important hearing. I have 
enjoyed all the questions of my colleagues and I have certainly 
enjoyed all that you have had to say. With that, we will recess 
until further notice.
    [Whereupon, at 12:37 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T3795.001
    
    [GRAPHIC] [TIFF OMITTED] T3795.002
    
    [GRAPHIC] [TIFF OMITTED] T3795.003
    
    [GRAPHIC] [TIFF OMITTED] T3795.004
    
    [GRAPHIC] [TIFF OMITTED] T3795.005
    
    [GRAPHIC] [TIFF OMITTED] T3795.006
    
    [GRAPHIC] [TIFF OMITTED] T3795.007
    
    [GRAPHIC] [TIFF OMITTED] T3795.008
    
    [GRAPHIC] [TIFF OMITTED] T3795.009
    
    [GRAPHIC] [TIFF OMITTED] T3795.010
    
    [GRAPHIC] [TIFF OMITTED] T3795.011
    
    [GRAPHIC] [TIFF OMITTED] T3795.012
    
    [GRAPHIC] [TIFF OMITTED] T3795.013
    
    [GRAPHIC] [TIFF OMITTED] T3795.014
    
    [GRAPHIC] [TIFF OMITTED] T3795.015
    
    [GRAPHIC] [TIFF OMITTED] T3795.016
    
    [GRAPHIC] [TIFF OMITTED] T3795.017
    
    [GRAPHIC] [TIFF OMITTED] T3795.018
    
    [GRAPHIC] [TIFF OMITTED] T3795.019
    
    [GRAPHIC] [TIFF OMITTED] T3795.020
    
    [GRAPHIC] [TIFF OMITTED] T3795.021
    
    [GRAPHIC] [TIFF OMITTED] T3795.022
    
    [GRAPHIC] [TIFF OMITTED] T3795.023
    
    [GRAPHIC] [TIFF OMITTED] T3795.024
    
    [GRAPHIC] [TIFF OMITTED] T3795.025
    
    [GRAPHIC] [TIFF OMITTED] T3795.026
    
    [GRAPHIC] [TIFF OMITTED] T3795.027
    
    [GRAPHIC] [TIFF OMITTED] T3795.028
    
    [GRAPHIC] [TIFF OMITTED] T3795.029
    
    [GRAPHIC] [TIFF OMITTED] T3795.030
    
    [GRAPHIC] [TIFF OMITTED] T3795.031
    
    [GRAPHIC] [TIFF OMITTED] T3795.032
    
    [GRAPHIC] [TIFF OMITTED] T3795.033
    
    [GRAPHIC] [TIFF OMITTED] T3795.034
    
    [GRAPHIC] [TIFF OMITTED] T3795.035
    
    [GRAPHIC] [TIFF OMITTED] T3795.036
    
    [GRAPHIC] [TIFF OMITTED] T3795.037
    
    [GRAPHIC] [TIFF OMITTED] T3795.038
    
    [GRAPHIC] [TIFF OMITTED] T3795.039
    
    [GRAPHIC] [TIFF OMITTED] T3795.040
    
    [GRAPHIC] [TIFF OMITTED] T3795.041
    
    [GRAPHIC] [TIFF OMITTED] T3795.042
    
    [GRAPHIC] [TIFF OMITTED] T3795.043
    
    [GRAPHIC] [TIFF OMITTED] T3795.044
    
    [GRAPHIC] [TIFF OMITTED] T3795.045
    
    [GRAPHIC] [TIFF OMITTED] T3795.046
    
    [GRAPHIC] [TIFF OMITTED] T3795.047
    
    [GRAPHIC] [TIFF OMITTED] T3795.048
    
    [GRAPHIC] [TIFF OMITTED] T3795.049
    
    [GRAPHIC] [TIFF OMITTED] T3795.050
    
    [GRAPHIC] [TIFF OMITTED] T3795.051
    
    [GRAPHIC] [TIFF OMITTED] T3795.052
    
    [GRAPHIC] [TIFF OMITTED] T3795.053
    
    [GRAPHIC] [TIFF OMITTED] T3795.054
    
    [GRAPHIC] [TIFF OMITTED] T3795.055
    
    [GRAPHIC] [TIFF OMITTED] T3795.056
    
    [GRAPHIC] [TIFF OMITTED] T3795.057
    

</pre></body></html>
